Audit Report




OIG-09-036
SAFETY AND SOUNDNESS: Material Loss Review
of Ameribank, Inc.
April 7, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report ...............................................................................................         1

    Results in Brief..........................................................................................       2

    Causes of Ameribank’s Failure ....................................................................               3

        Failure to Manage the LendingOne Relationship ........................................                4
        Concentration of CRH Loans Resulting From Rapid Growth of Assets..........                            6
        Deficient Board and Management Oversight of the LendingOne
            Relationship..................................................................................... 8
        Deficient Internal Loan Review Process and Underwriting Standards ........... 10
        Deterioration in the Credit Market and Decline of the Real Estate Market ..... 11

    OTS Supervision of Ameribank.................................................................... 12

        Enforcement Actions Taken by OTS........................................................                   13
        Forceful Action Should Have Been Taken Sooner to Address
           Ameribank’s Rapid Growth in a High-Risk Concentration.......................                            15
        Limited Sample of LendingOne Loans Reviewed Prior to the
           April 2007 Examination.....................................................................             17
        LendingOne CRH Loans Not Properly Categorized .....................................                        18
        LendingOne Agreement Not Thoroughly Reviewed Until 2007 ....................                               18
        Other Observations on OTS Guidance for CRH-type Loans .........................                            19
        OTS’s Internal Assessment of the Ameribank Failure.................................                        20

    Recommendations .....................................................................................          22

Appendices

    Appendix 1:          Objectives, Scope, and Methodology ....................................                   24
    Appendix 2:          Background........................................................................        27
    Appendix 3:          Glossary ............................................................................     32
    Appendix 4:          Chronology of Significant Events ..........................................               40
    Appendix 5:          OTS Ameribank Examinations, Field Visits, and
                             Enforcement Actions......................................................             50
    Appendix     6:      Prior OIG Material Loss Review Recommendations..................                          60
    Appendix     7:      Management Response .......................................................               62
    Appendix     8:      Major Contributors to This Report .........................................               63
    Appendix     9:      Report Distribution..............................................................         64

                         Material Loss Review of Ameribank, Inc.                                                 Page i
                         (OIG-09-036)
Abbreviations

  ALLL              allowance for loan and lease losses
  C&D               cease and desist (order)
  CEO               chief executive officer
  CRH               construction rehabilitation account
  EIC               examiner in charge
  EVP               executive vice president
  FDIC              Federal Deposit Insurance Corporation
  FICO              Fair Isaac Corporation
  OIG               Department of the Treasury Office of Inspector General
  OTS               Office of Thrift Supervision
  PCA               Prompt Corrective Action
  ROE               report of examination
  SRO               senior risk officer
  SVP               senior vice president
  WCO               workout and collections officer




                Material Loss Review of Ameribank, Inc.                      Page ii
                (OIG-09-036)
                                                                       Audit
OIG
The Department of the Treasury
                                                                       Report
Office of Inspector General




                  April 7, 2009

                  John E. Bowman, Acting Director
                  Office of Thrift Supervision

                  This report presents the results of our review of the failure of
                  Ameribank, Inc., of Northfork, West Virginia, and of the Office of
                  Thrift Supervision’s (OTS) supervision of the institution. Our review
                  was mandated under section 38(k) of the Federal Deposit Insurance
                  Act, as amended. OTS closed Ameribank and appointed the Federal
                  Deposit Insurance Corporation (FDIC) as receiver on September 19,
                  2008. As of December 31, 2008, FDIC estimated that Ameribank’s
                  failure would cost the Deposit Insurance Fund $33.4 million.

                  Section 38(k) requires that we determine why Ameribank’s
                  problems resulted in a material loss to the insurance fund; review
                  OTS’s supervision of Ameribank, including implementation of the
                  Prompt Corrective Action (PCA) provisions of section 38(k); and
                  make recommendations for preventing any such loss in the future.
                  We reviewed the supervisory files and interviewed key officials
                  involved in the regulatory enforcement matters. We conducted our
                  fieldwork from October 2008 through February 2009 at OTS’s
                  headquarters in Washington, D.C., and at OTS district offices in
                  Jersey City, New Jersey, and Chicago, Illinois, and the OTS field
                  office in Pittsburgh, Pennsylvania. We also performed work at the
                  FDIC Division of Resolutions and Receiverships in Dallas, Texas,
                  and interviewed its officials and those of the FDIC Division of
                  Supervision and Consumer Protection.

                  Appendix 1 contains a more detailed description of our objectives,
                  scope, and methodology. Appendix 2 contains background
                  information on Ameribank and OTS’s enforcement processes. We
                  also provide a glossary as appendix 3. The terms are underlined
                  and hyperlinked to the glossary where first used in the report. A

                  Material Loss Review of Ameribank, Inc.                        Page 1
                  (OIG-09-036)
               chronology of significant events related to Ameribank and
               supervision of the thrift is provided in appendix 4. Significant
               examination results and information on enforcement actions are
               included in appendix 5.


Results in Brief
               The primary causes of Ameribank’s failure were the thrift’s rapid
               growth in assets and an unsafe and unsound concentration in
               construction rehabilitation account (CRH) loans resulting from its
               failure to appropriately manage its relationship with a third-party
               mortgage broker, Bristol Home Mortgage Lending, LLC, d.b.a.
               LendingOne. Ameribank’s board and management did not exercise
               sufficient oversight of the LendingOne relationship. A weak internal
               loan review process and weak underwriting standards also
               contributed to the failure. These conditions at Ameribank were
               exacerbated by the deterioration in the credit market and decline of
               the real estate market.

               OTS conducted timely and regular examinations of Ameribank and
               provided oversight through offsite monitoring. However, its
               supervision of the thrift failed to prevent a material loss to the
               Deposit Insurance Fund. The thrift’s high-risk business strategy
               should have warranted more careful and earlier attention to address
               Ameribank’s rapid growth in high-risk concentrations. OTS did not
               adequately sample the LendingOne loans prior to the April 2007
               examination and did not thoroughly review the thrift’s agreement
               with LendingOne until 2007, even though Ameribank’s relationship
               with LendingOne extended back to 2003. In addition, the
               LendingOne CRH loans were not properly categorized and OTS’s
               guidance on CRH loans was not specific.

               We are recommending that OTS remind its examiners of guidance
               covering the risks associated with rapid growth in high-risk
               concentrations, the need to conduct more thorough loan sampling
               from the portfolio when a rapid increase in concentration is
               identified, and the need to assess thrift third-party relationships.
               Additionally, OTS should assess the need for guidance requiring
               risk assessment of CRH loans as an integral part of assessing a
               thrift’s overall risk and ensure that the recommendations and the
               lessons learned from its internal review of the Ameribank failure are

               Material Loss Review of Ameribank, Inc.                        Page 2
               (OIG-09-036)
                    implemented. In a written response, OTS concurred with the
                    recommendations and stated that it is committed to strengthening
                    its supervisory process and plans to implement the
                    recommendations by August 2009. The response is provided as
                    appendix 7.


Causes of Ameribank’s Failure
                    Ameribank entered into a relationship with LendingOne, a third-
                    party Florida mortgage broker, in 2003 to buy pools of loans made
                    by the mortgage broker to rehabilitate houses. Ameribank failed to
                    appropriately manage the relationship, which led to the thrift’s
                    rapid growth in assets and concentration of CRH loans. Ultimately,
                    the failed relationship and the subsequent growth of assets led to
                    Ameribank’s closure.

                    Figure 1 shows Ameribank’s asset growth from 2002 to 2008.
                    Table 1 shows the growth in Ameribank’s relationship with
                    LendingOne from February 2005 through May 2007.

       Figure 1. Ameribank Total Assets Growth From 2002 to 2008

                                      Ameribank Total Asset Growth (in millions)
         $180

         $160

         $140

         $120

         $100

          $80

          $60

          $40

          $20

            $0
                    2002         2003        2004         2005         2006        2007         2008
                                                                                                (2Q)
       Source: Thrift financial reports as of December 31 for all years except 2008, which is as of June 30.




                    Material Loss Review of Ameribank, Inc.                                                    Page 3
                    (OIG-09-036)
              Table 1. LendingOne Relationship Growth From February 2005 Through May 2007
                       (amounts in millions)
                                                                       a
               Type of loan                                 2/28/2005            6/30/2005           6/30/2006          5/31/2007

               CRHb                                             $10.7               $18.5               $40.2               $75.6
               End (permanent mortgage)                             5.2                 5.1                5.4                   4.2
               Line of credit                                       1.0                 2.0                2.0                   2.0
               Total                                            $16.9               $25.6               $47.6               $81.8
               Percentage of LendingOne–
               related activities to
               Ameribank’s tier 1 capital plus                  200%                174%                273%                401%
               ALLL c
                 Source: OTS reports of examination.
                 a
                   The dates shown are associated with field visits and examination dates.
                 b
                   For the period above, the number of individual CRH loans increased from 81 to 721.
                 c
                   The term “capital plus ALLL” (allowance for loan and lease losses) refers to tier 1 core capital plus ALLL.


                          Failure to Manage the LendingOne Relationship

                          The formal relationship with LendingOne was established by
                          Ameribank’s chairman and its chief executive officer (CEO).1 A
                          mortgage loan servicing and sales agreement was signed on
                          May 19, 2004, and amended three times to reflect changes in
                          terms. With each amendment, the terms of the relationship became
                          less favorable to Ameribank. For example, with the first
                          amendment, the thrift’s yield rate was cut from prime plus
                          2.50 percent to prime plus 1.50 percent. By the third amendment,
                          the rate was reduced to prime plus 0.25 percent, and Ameribank
                          was required to purchase a minimum of $13.5 million in CRH loans
                          from LendingOne every 3 months beginning March 1, 2006. The
                          CRH loans were originated at rates of up to 18 percent, with
                          origination fees of at least 5 percent of the loan amount. Except for
                          the yield portion described above, all interest and fees were
                          retained by LendingOne. Virtually all risk of loss resided with
                          Ameribank.

                          The CRH loans originated by LendingOne financed the rehabilitation
                          of distressed properties, predominantly in lower- to moderate-
                          income housing markets. LendingOne also retained the servicing
                          rights to the CRH loans sold to Ameribank pursuant to the
                          agreement. The loans were made to individual investors for the

1
    The chairman was also the majority shareholder of Ameribank.


                          Material Loss Review of Ameribank, Inc.                                                          Page 4
                          (OIG-09-036)
purchase and renovation of one- to four-family residential
properties, usually for a 12-month period. The borrowers had little
or no financial risk because they were required to put little, if any,
of their own money in the properties. The average loan amount
was $105,000. The borrowers typically received 100 percent
financing for acquisition and renovation costs of the property. The
CRH loan products were initially on properties in Florida but were
later expanded to other states, including Louisiana after Hurricane
Katrina.

In 2004, Ameribank management saw a niche lending opportunity
with respect to CRH borrowers who sought to rent their properties
after rehabilitation. The thrift converted the short-term CRH loans
to permanent mortgages, referred to as end loans, that had a 30-
year term and interest rates that adjusted after the first 2 years and
every 6 months thereafter. These end loans were primarily
underwritten based on the anticipated cash flow of the rental
property and the borrower’s credit score; they did not consider the
borrower’s own ability to repay the loan. Ameribank stopped
originating end loans in May 2006 because of early signs of
delinquency and poor loan quality.

To enhance its relationship with LendingOne, Ameribank provided a
$1 million line of credit to LendingOne in April 2004. In April 2005,
Ameribank increased the line of credit to $1.95 million. LendingOne
used the line of credit to purchase matured CRH loans (loans that
had reached the term limit for properties on which rehabilitation
was not complete) and delinquent CRH loans from the thrift and
other financing facilities. In essence, Ameribank provided financing
to LendingOne to repurchase these loans that LendingOne had
originated. This arrangement worked as planned in the beginning,
when the level of problem assets was manageable. However, when
problem assets began to escalate in 2007, the line of credit was
insufficient to handle the volume of problem CRH loans. Ameribank
demanded repayment of the line of credit in February 2008, but
LendingOne defaulted. Ameribank classified the line of credit as
doubtful as of March 2008.

OTS stated in the April 2007 examination that Ameribank
management was struggling to understand the workings of this
lending relationship as set forth in the mortgage loan servicing and


Material Loss Review of Ameribank, Inc.                           Page 5
(OIG-09-036)
sales agreement and subsequent amendments. It was evident that
the thrift failed to manage the LendingOne relationship
appropriately.

Concentration of CRH Loans Resulting From Rapid Growth of
Assets

From 2004 to 2006, Ameribank’s total assets grew from about
$91 million to $166 million. Management achieved the asset
growth principally by financing highly speculative CRH loans.
Ameribank acquired a significant portion of these loans through its
relationship with LendingOne. Acquisition of these loans was part
of the business strategy of the new management team of
Ameribank.

As of September 30, 2004, Ameribank’s CRH loan portfolio
consisted of 46 CRH loans totaling $4.3 million. By May 31, 2007,
the CRH portfolio consisted of 721 loans totaling $75.6 million.
The accelerated concentration in this asset class posed a major
concentration risk to the thrift. In the April 2007 examination, OTS
stated that the rapid growth and a material increase in overall
delinquencies and classifications elevated this concentration to a
serious regulatory concern.

Adding to this risk was the expansion of CRH loans into the New
Orleans market following Hurricane Katrina. Unforeseen problems
in obtaining materials, skilled laborers, and contractors led to cost
overruns and renovation delays. Ameribank’s exposure to
LendingOne–originated CRH loans secured by properties in the New
Orleans region totaled $26.4 million as of May 31, 2007, or 35
percent of Ameribank’s total CRH loan portfolio. This portfolio
suffered significant delinquencies and credit losses.

In 2008, it was becoming apparent that repayment of CRH loans
was slowing and would be more difficult than initially thought.
Ameribank attempted to pick up repayment levels by offering to
waive all interest and fees if a borrower paid off the loan plus
$1,000. By March 2008, 297 CRH loans were in the foreclosure
process. During its May 2008 board meeting, Ameribank’s board
indicated a willingness to accept short sales on the CRH loans.



Material Loss Review of Ameribank, Inc.                        Page 6
(OIG-09-036)
In the April 2007 examination, OTS stated that there had been a
significant deterioration in the quality of assets and escalation of
risk since the preceding examination due primarily to an unsafe and
unsound concentration of loans.

Significant Erosion of Capital and Earnings Due to CRH Loans

The excessive growth and resulting concentration of assets in high-
risk and speculative CRH loans resulted in a significant erosion of
Ameribank’s capital and earnings. The adverse impact of the assets
acquired through the LendingOne relationship was recognized
primarily from July 1, 2007, through June 30, 2008, when
Ameribank reported a loss of $17.7 million. The loss caused total
equity capital to decline to $2.7 million as of June 30, 2008.
During the same period, the core capital and total risk-based capital
ratios fell from well capitalized to significantly undercapitalized.
From July 1, 2007, to June 30, 2008, the core capital ratio
declined from 11.3 percent to 2.1 percent, and the total risk-based
capital ratio declined from 17.5 percent to 4.2 percent. On
October 19, 2007, OTS issued a cease and desist (C&D) order to
Ameribank requiring it to achieve and maintain core capital and
total risk-based capital ratios of 8.5 percent and 11.5 percent,
respectively. Ameribank never achieved these capital ratios.

Unsafe and Unsound Concentration of CRH Loans

OTS defines a concentration as a group of similar types of assets
or liabilities that, when aggregated, exceed 25 percent of a thrift’s
core capital plus allowance for loan and lease losses (ALLL).
Concentrations pose additional risk because the same economic,
political, or environmental event can negatively affect the entire
group of assets or liabilities.

The LendingOne concentration risk was first identified by OTS in its
March 2005 field visit due to the loans’ direct or indirect
(originated by) relation to LendingOne and to LendingOne’s direct
control of the loan underwriting and servicing of the CRH portfolio.

The total volume of CRH loans purchased from LendingOne grew
77 percent in 9 months (July 2006 through March 2007). As of
March 31, 2007, the entire relationship with LendingOne (the
purchased CRH loans, end loans, and the line of credit) reached a

Material Loss Review of Ameribank, Inc.                         Page 7
(OIG-09-036)
peak of $84.6 million, representing 423 percent of Ameribank’s
capital plus ALLL and comprising 50 percent of Ameribank’s total
assets.

Deficient Board and Management Oversight of the LendingOne
Relationship

Deficient Board Oversight

As mentioned before, the thrift’s growing involvement with
LendingOne was first identified as a concentration risk by OTS in a
March 2005 field visit. Because of the elevated risk presented by
the LendingOne program, OTS examiners recommended that the
board discuss establishing an in-house limit on the concentration—
as a percentage of capital or assets. Ameribank’s board met in
March and April 2005 and decided not to set limits on the
LendingOne portfolio. However, Ameribank management informed
the board in May 2005 that it had established a limit for CRH loans
at 30 percent of total assets and a limit for end loans at 10 percent
of total assets. OTS was satisfied with the limits.

The CEO dominated Ameribank’s board meetings in 2005 and
2006, as evidenced in the board minutes. In addition, the board
minutes indicate passivity by the directors in their discussions and
approvals of the LendingOne relationship. For example, when the
CEO informed the board in February and March 2006 about the
proposed terms of the third amendment to the LendingOne
agreement, there was no discussion by the board and no vote on
the amendment. This amendment, which reduced the return to
Ameribank on LendingOne-originated loans and required Ameribank
to purchase at least $13.5 million in loans from LendingOne each
quarter, was an important factor in the accelerated growth of the
thrift.

According to OTS’s April 2007 report of examination (ROE), the
Ameribank board minutes also indicated a disconnect between the
board’s sentiment and actual operations of the thrift during the first
quarter of 2007. As early as the December 2006 board meeting,
and continuing through the meetings held in January and February
2007, inquiries by certain directors and officers of the thrift led to
discussion of the growing LendingOne exposure, the risk involved,


Material Loss Review of Ameribank, Inc.                         Page 8
(OIG-09-036)
and delinquencies that were starting to occur with the LendingOne-
originated loans. On more than one occasion, the discussions
addressed ways to decrease the exposure gradually without
stopping the relationship. However, the thrift continued to
purchase loans from LendingOne, and it was during the first quarter
of 2007 that the concentration limits established by Ameribank
management were breached and substantially exceeded.

Furthermore, Ameribank’s internal audit function was inadequate
and ineffective with respect to the LendingOne relationship. The
board did not ensure that the internal audit function was involved
in any independent risk assessment of the CRH portfolio.
Accordingly, we believe Ameribank’s board did not adequately
perform its duties and failed to demonstrate adequate direction in
overseeing the thrift’s financial condition.

Deficient Management Oversight

Prior to 2003, Ameribank was primarily a small thrift with five
branches, headquartered in and serving a rural and economically
depressed area of southern West Virginia. In August 2003,
Ameribank installed a new management team—based in Florida—
which consisted of the CEO, an executive vice president/senior risk
officer, and a senior vice president/workout and collections officer,
and entered the Florida market. The CEO directed the lending
efforts toward niche products with generally higher yields and
higher risks. One of those niche products was CRH loans. By the
end of 2006 and beginning of 2007, however, the Florida-based
management team, which had been primarily responsible for
overseeing the LendingOne relationship, left Ameribank, leaving a
significant void in management and operational knowledge of the
relationship.

By the end of 2006 and continuing into the beginning of 2007, the
level of monitoring and oversight necessary to control the risks of
CRH loans that LendingOne was originating and underwriting did
not exist at the thrift. With the departure of the Florida-based
management team, Ameribank’s expertise in the management of
the LendingOne relationship eroded substantially, and the thrift’s
remaining officials were not able to manage the relationship or deal
with the declining portfolio quality effectively. As a result, the CRH


Material Loss Review of Ameribank, Inc.                          Page 9
(OIG-09-036)
loan portfolio further increased, while the level of monitoring and
review decreased significantly. Furthermore, when OTS began the
April 2007 examination, the Ameribank board told OTS examiners
that no active search for qualified management was underway. To
keep expenses low, Ameribank was reluctant to hire adequate
staffing.

According to OTS’s April 2007 ROE, Ameribank management
    was not appropriately responding to its problems;
    had become complacent and completely dependent upon
     LendingOne’s servicing and management of the portfolio;
     and
    could be deficient in planning for and responding to risks that
     might arise from changing business conditions or new
     strategies.

OTS cited as one example of management’s deficiency that it
continually engaged in risky lending without ensuring proper loan
administration procedures and without conducting due diligence on
or monitoring the acquisition of CRH loans from 2006 and 2007.

Deficient Internal Loan Review Process and Underwriting Standards

Since inception of the CRH loan program at Ameribank in May
2004, loans were originated and underwritten according to
LendingOne’s underwriting standards, which were approved and
adopted by Ameribank. In 2007, OTS examiners reported concerns
with the thrift’s lending policies and procedures related to its other
lending programs. OTS also found loan files lacking current
information and instances of noncompliance with internal policies
by loan officers.

In the April 2007 ROE, OTS determined that Ameribank’s
underwriting was lacking on end loans because it was based solely
on cash flow from rental income and did not consider the
borrower’s own ability to repay the loan. The layering of risk
associated with CRH loans was also associated with end loans.
OTS noted other risks with the CRH loans, including the brokered
aspect and very high interest rates (in the 15 percent range). In
addition, OTS noted that the CRH loans lacked formal verification
of employment, debt-to-income calculations, escrowing for taxes

Material Loss Review of Ameribank, Inc.                         Page 10
(OIG-09-036)
and insurance, and equity on the borrower’s part. According to
OTS, based on its review of the thrift’s policies and procedures,
management needed to revise its lending policies to control the risk
within the portfolio. OTS stated that the lending authority was
excessive and that risk management was lacking.

During the October 2007 examination, OTS found that Ameribank
management had revised its lending policies to improve the thrift’s
operation and to control future lending risk. However, OTS found
serious deficiencies in the loans originated by LendingOne and
commented that Ameribank should review its internal loan review
process to improve its process for early identification of loans that
should be classified.

Deterioration in the Credit Market and Decline of the Real Estate
Market

In 2007, the deteriorating credit market began to affect CRH loan
borrowers. Real estate values dropped in markets where many of
the CRH properties were located, making additional losses to the
thrift highly probable. With this decline in real estate values,
delinquencies in Ameribank’s CRH loan portfolio soared. The
collapse of the real estate market in 2007 resulted in the inability
of borrowers to attract interested buyers and of long-term investors
in the rehabilitated properties to secure permanent credit, which in
turn led to defaults on many CRH loans and substantial write-
downs on others.

In 2007 and 2008, Ameribank ordered broker price opinions for
every loan affiliated with the CRH portfolio. The thrift used these
opinions to write down every CRH loan to 90 percent of the
valuation less cost to sell. This re-evaluation process recognized
the declining collateral values in the CRH portfolio and, coupled
with rapidly rising defaults within the portfolio, led to the thrift’s
establishing $15.8 million in ALLL plus $2 million in real estate
owned write-offs during the year ended June 30, 2008. On
July 16, 2008, OTS issued a PCA notice that Ameribank was
significantly undercapitalized. Ameribank responded on July 31,
2008, that it was unsuccessful in its attempts to raise capital.
Ameribank’s core and risk-based capital ratios eventually declined



Material Loss Review of Ameribank, Inc.                          Page 11
(OIG-09-036)
                      to 1.1 percent and 2.1 percent, respectively, as of August 31,
                      2008, shortly before its failure in September 2008.


OTS Supervision of Ameribank
                      OTS Examinations of Ameribank

                      OTS conducted full- and limited-scope safety and soundness,
                      compliance, information technology, risk-focused, and
                      comprehensive examinations of Ameribank during the scope of our
                      review.2 After reviewing OTS’s work, we concluded that OTS
                      conducted timely and regular examinations and off-site monitoring
                      in accordance with the OTS Examination Handbook. Table 2
                      summarizes the results of OTS’s safety and soundness
                      examinations and provides the dates of enforcement actions.
                      Appendix 5 provides details of matters requiring board attention,
                      corrective actions, and other examination findings.




2
  When the term examination is used by itself in this report, it refers to an OTS examination that
includes safety and soundness. Other aspects, such as compliance or information technology, may also
have been part of the examination, but were not the focus of our audit.

                      Material Loss Review of Ameribank, Inc.                                 Page 12
                      (OIG-09-036)
        Table 2. Summary of OTS Ameribank Examinations and Enforcement Actions

                                                                    Examination Results
                                                          No. of
                                                          matters
                                                          requiring   No. of
        Date            Assets          CAMELS            board       corrective      Formal enforcement
        starteda        (millions) b    rating            attentionc actions          actions
        7/22/2002              $84      2/222211                0                 1           None
        4/12/2004              $97      2/222311                0                 6           None
        7/5/2005              $136      2/221211                0                 1           None
                                                                                              Supervisory directive
                                                                                              5/25/2007
        4/16/2007             $161      4/344322                7                 8           C&D order 10/19/2007
        10/1/2007             $115      5/554543                9                 1           PCA directive 8/25/2008
        1/7/2008d                -      4/454432                0                 0
           Source: OTS ROEs.
           a
             From 2002 to 2007, Ameribank was on an 18-month examination cycle. An examination cycle begins with the
           transmittal of the ROE. See appendix 2, Types of Examinations Conducted by OTS, for additional information
           about when OTS conducts examinations.
           b
             In some instances, the assets amount included in the ROEs differs from that reported in the thrift financial
           reports due to adjustments made by examiners to reflect the establishment of reserves and the charge-off of
           assets once the examination has started. This table and appendix 5 reflect the figures in the ROEs. Of particular
           significance is the October 1, 2007, figure, which was adjusted to $115 million from $158 million.
           c Matters requiring board attention identified in OTS ROEs are not enforcement actions. However, failure by a

           thrift’s board and management to address the matters could lead to an enforcement action.
           d The January 7, 2008, examination was a limited examination conducted prior to an FDIC insurance premium

           assessment.


                        Enforcement Actions Taken by OTS

                        OTS’s preliminary findings from the April 2007 examination of
                        Ameribank disclosed significant regulatory concerns with the
                        thrift’s relationship with LendingOne. OTS issued a supervisory
                        directive on May 25, 2007, that identified Ameribank as a troubled
                        institution and downgraded its CAMELS composite rating and its
                        CAMELS capital, asset quality, management, and liquidity
                        component ratings.3 The supervisory directive also restricted the
                        relationship between Ameribank and LendingOne, required
                        Ameribank to obtain more control over LendingOne assets, required




3
 OTS took action to downgrade the thrift’s composite CAMELS rating to 4, with downgrades of the
capital, asset quality, management, and liquidity components to 3, 4, 4, and 2, respectively.

                        Material Loss Review of Ameribank, Inc.                                                      Page 13
                        (OIG-09-036)
                       Ameribank to develop a timetable to reduce asset concentration,
                       and required a $5 million capital infusion.4

                       Ameribank failed to reduce the asset concentration as required by
                       the supervisory directive. OTS issued a C&D order on October 19,
                       2007, that further restricted Ameribank operations, prohibited
                       increases in LendingOne-related assets, required an aggressive and
                       consistent reduction in asset concentration, and imposed a tier 1
                       (core) capital requirement of 8.5 percent and a total risk-based
                       capital requirement of 11.5 percent.5 Ameribank did not achieve
                       the capital ratios imposed by the C&D order.

                       At the time that Ameribank entered receivership, it had not
                       complied with the capital requirement primarily because of losses
                       attributed to the continuing write-downs to the LendingOne assets.

                       Prompt Corrective Action

                       As of March 31, 2008, Ameribank’s capital level had fallen to
                       adequately capitalized.6 On July 16, 2008, OTS formally notified
                       the thrift that it was significantly undercapitalized. The PCA notice
                       required Ameribank to file a capital restoration plan no later than
                       July 31, 2008. The PCA notice also required that Ameribank abide
                       by various PCA restrictions and the C&D order. On July 31, 2008,
                       thrift management responded that it was unsuccessful in its
                       attempts to raise capital and could not provide a capital restoration
                       plan.

                       On August 11, 2008, OTS notified Ameribank that it was deemed
                       to be critically undercapitalized. OTS informed the thrift of its
                       intent to issue a PCA directive and requested consent to appoint a
                       receiver. On August 18, 2008, the thrift consented to the PCA
                       directive and the appointment of a receiver. On August 25, 2008,
                       OTS issued the PCA directive requiring Ameribank to restore capital


4
  Capital infusions totaling $4 million were made during June and July 2007. Although the total infusion
was $1 million less than required by the supervisory directive, OTS accepted the amount infused as
meeting the intent of the directive.
5
  These capital levels imposed by OTS were above the minimum levels for well-capitalized under PCA
provisions (6 percent for tier 1 capital and 10 percent for total risk-based capital).
6
  Tier-1 and risk-based capital ratios were 8.25 percent and 9.55 percent, respectively. For detail on
PCA capitalization requirements, see the entry for Prompt Corrective Action in appendix 3.

                       Material Loss Review of Ameribank, Inc.                                   Page 14
                       (OIG-09-036)
to adequately capitalized levels by September 8, 2008. Ameribank
responded on September 10, 2008, that it was not going to reach
the capital levels prescribed by the PCA directive.

On September 16, 2008, a potential investor group made an offer
to acquire Ameribank, subject to due diligence. However, the group
required 6 weeks to conduct due diligence and did not provide
funding. OTS concluded that the offer did not present Ameribank
with any legitimate prospect of becoming adequately capitalized
without federal assistance.

We concluded that after OTS identified significant problems during
the April 2007 examination, it took appropriate enforcement action
in a timely manner. We believe, however, that more timely action
was needed when OTS first identified rapid growth in Ameribank’s
LendingOne portfolio.

Forceful Action Should Have Been Taken Sooner to Address
Ameribank’s Rapid Growth in a High-Risk Concentration

One of the causes of Ameribank’s failure was the rapid asset
growth in highly speculative LendingOne CRH loans. OTS first
identified rapid growth in the LendingOne concentration during a
March 2005 field visit to the Ameribank-Florida branch office. OTS
categorized the LendingOne loans as a high-risk concentration
because the loans were originated, underwritten and serviced by
the third party. A month before the July 2005 examination, OTS
also identified regulatory concern with rapid asset growth and,
more specifically, growth in untraditional types of loan products. In
the July 2005 ROE, OTS noted that the thrift’s risk profile
continued to increase due to a growing commercial loan portfolio
and credit concentrations. Four months later, in a field visit report,
OTS noted that Ameribank’s earnings in the first three quarters of
2005 were at levels well above its peer group medians and met or
outpaced 2004 net income levels. OTS attributed the increase
primarily to high-risk lending in LendingOne products.

When examiners initiated the April 2007 examination, they found
significant deterioration in asset quality due to the thrift’s
excessive and uncontrolled growth in the LendingOne



Material Loss Review of Ameribank, Inc.                         Page 15
(OIG-09-036)
                         concentration. This finding prompted OTS to issue the supervisory
                         directive and later the C&D order.

                         According to the OTS examiners-in-charge (EICs) for 2004-2006,
                         there was concern with rapid growth in the high-risk concentration
                         in LendingOne loans. However, the EICs did not believe that they
                         could require Ameribank to take corrective action because the thrift
                         had no major problems such as significant loan classifications or
                         delinquencies. Also, the thrift had a CAMELS composite rating
                         of 2. The EICs also stated that, given the lack of severity of the
                         conditions found, OTS could only make suggestions to the board at
                         this point. Another EIC stated, however, that examiners should
                         have done more when they first identified high-risk lending policies.
                         In retrospect, two OTS examination personnel we interviewed
                         acknowledged that they may have relied too much on Ameribank’s
                         management.

                         We believe that OTS should have taken more timely action based
                         on the March 2005 field visit. The rapid growth in a high-risk
                         concentration was highlighted as a concern in the field visit report
                         and transmittal letter. Presenting this to the board as either a
                         corrective action or a matter requiring board attention would have
                         shown urgent regulatory concern. In addition, an informal
                         enforcement action should have been considered after the
                         completion of the July 2005 examination.7 The ROE for the July
                         2005 examination reiterated examiners’ concerns with rapid
                         growth in a high-risk concentration first identified during the March
                         2005 field visit. According to the OTS Examination Handbook, an
                         enforcement action can be taken when an unsafe or unsound
                         practice is repeated.

                         We recognize that it is somewhat speculative to conclude that
                         earlier and more forceful enforcement action would have prevented
                         Ameribank’s failure or lessened losses to the Deposit Insurance
                         Fund. Nevertheless, by using more forceful actions with Ameribank
                         in 2005, OTS would have made the thrift more aware of the
                         dangers of rapid growth in high-risk concentrations.




7
    Appendix 2 provides additional information on enforcement actions.

                         Material Loss Review of Ameribank, Inc.                        Page 16
                         (OIG-09-036)
Limited Sample of LendingOne Loans Reviewed Prior to the
April 2007 Examination

We believe that the OTS examiners should have sampled more
LendingOne loans during their March 2005 field visit, July 2005
examination, and June 2006 field visit.

According to the OTS Examination Handbook, examiners should
sample assets to ascertain whether the thrift is applying prudent
underwriting standards and is complying with applicable regulations
and policy. The objective of sampling is to limit the number of
assets reviewed while still providing enough information to enable
the examiner to draw and support a reliable conclusion about the
portfolio.

The workpapers for the March 2005 field visit indicated that the
examiners reviewed less than 10 percent of the total value of the
LendingOne loan portfolio. While the report on the visit did indicate
that some loans were reviewed, it did not state whether any
LendingOne loans were reviewed. The workpapers for the July
2005 examination indicated that the examiners reviewed less than
5 percent of the total value of the LendingOne loan portfolio. The
examiners found that the quality of the loan portfolio was strong
but they continued to have concerns with LendingOne’s
involvement with the loan portfolio. For the June 2006 field visit,
there was no indication in the workpapers or the report that
examiners had conducted a review of LendingOne loans.

The EIC explained that during the field visits examiners may have
looked at some LendingOne loan files and disapproved loan
applications but not documented the results if they had no
concerns with the underwriting, appraised values, or delinquencies.

It was not until the April 2007 examination that examiners
conducted an in-depth review of loan files and various portfolio
reports. During this review, examiners discovered that Ameribank’s
exposure to LendingOne had caused extreme risks to capital,
earnings, and the overall safety and soundness of the thrift.




Material Loss Review of Ameribank, Inc.                        Page 17
(OIG-09-036)
LendingOne CRH Loans Not Properly Categorized

To calculate total risk-based capital on thrift financial reports,
thrifts classify assets in one of four risk-weighted asset categories:
0 percent, 20 percent, 50 percent, or 100 percent. An asset with a
risk weight of 0 percent is counted in its entirety in determining
capital. In contrast, an asset with a risk weight of 100 percent is
not counted in determining capital. Residential construction loans
are either included in the 50 percent risk-weight category or the
100 percent risk-weight category. To be included in the 50 percent
risk-weight category, the borrower must intend to occupy the
home and make a substantial earnest money deposit. If these
conditions are at any time not met, the loan must be put in the
100 percent risk-weight category.

During the April 2007 examination, OTS examiners found that
Ameribank had improperly placed the LendingOne CRH loans in the
50 percent risk-weighted category instead of the 100 percent
category. We believe that OTS should have identified this
misclassification by Ameribank sooner because OTS had previously
described these loans as having characteristics consistent with
100 percent risk-weighted assets. Specifically, examiners wrote in
the report on their March 2005 field visit that LendingOne made
loans to individual investors for the purchase and renovation of
one- to four-family residential, non-owner occupied properties.
These CRH loans were made with no cash down payment, for
100 percent of the purchase price, including most closing costs,
and the costs to rehabilitate the property.

Requiring Ameribank to place CRH loans purchased from
LendingOne in the 100 percent risk category as early as the March
2005 field visit would have required Ameribank to maintain more
capital.

LendingOne Agreement Not Thoroughly Reviewed Until 2007

OTS did not thoroughly review the Ameribank and LendingOne
agreement until the April 2007 examination. This relationship was
a leading cause of the thrift’s failure.




Material Loss Review of Ameribank, Inc.                        Page 18
(OIG-09-036)
                      According to OTS Thrift Bulletin 82a, OTS reviews notices of third-
                      party arrangements for informational purposes and would not
                      generally do an in-depth review until the next comprehensive
                      examination after it has received notification of the third-party
                      arrangement. The bulletin also states that using third parties to
                      provide loan services related to mortgage servicing or other
                      arrangements may create difficulties for thrifts to manage, or for
                      OTS to oversee, if the thrift becomes troubled or fails. For this
                      reason, management should include a provision in the contract that
                      allows it or OTS to terminate the contract upon reasonable notice
                      and without penalty if the thrift becomes troubled. According to
                      Thrift Bulletin 82a, the OTS supervisory approach to any third-party
                      provider arrangement will emphasize management’s responsibilities
                      to manage risk appropriately, conduct adequate due diligence,
                      comply with applicable laws, and ensure access to critical
                      information with respect to third-party activities.

                      OTS conducted a site visit to LendingOne during the July 2005
                      examination. However, the EIC told us that he did not thoroughly
                      read the agreement between Ameribank and LendingOne until the
                      April 2007 examination.

                      Other Observations on OTS Guidance for CRH-Type Loans

                      OTS had not yet developed guidance to evaluate CRH loans
                      because these types of loans were relatively new. Instead, OTS
                      examiners applied commercial real estate lending guidance to
                      evaluate Ameribank’s CRH loan activities.8 OTS developed this
                      guidance to clarify that thrifts actively engaged in commercial real
                      estate lending should assess their concentration risk and implement
                      appropriate risk management policies and procedures to identify,
                      monitor, manage, and control their concentration risks. The
                      guidance does not establish specific commercial real estate lending
                      limits; rather, it seeks to promote sound risk management practices
                      that will enable thrifts to continue to pursue commercial real estate
                      lending in a safe and sound manner.




8
 Office of Thrift Supervision Guidance on Commercial Real Estate Concentrations Risks (Dec. 14,
2006).

                      Material Loss Review of Ameribank, Inc.                                 Page 19
                      (OIG-09-036)
OTS’s Internal Assessment of the Ameribank Failure

OTS policy requires it to conduct an internal assessment when a
thrift fails. That assessment, referred to as an internal failed thrift
review, is performed by staff independent of the region responsible
for supervisory oversight of the failed thrift. The report is reviewed
and signed by the OTS Deputy Director of Examinations,
Supervision, and Consumer Protection.

On December 22, 2008, OTS completed its internal failed thrift
review on Ameribank. OTS determined that the main causes of
Ameribank’s failure were credit losses, the lack of sound risk
management practices that arose primarily out of the LendingOne
relationship, and the beginning of the deterioration and turmoil in
the credit markets in 2007.

Based on our review of the examination records and reports and
our interviews with OTS staff, we affirm OTS’s internal findings
and need for corrective actions.

OTS identified five areas in which it could have strengthened its
supervision of Ameribank. Specifically, it could have

     ensured that Ameribank based concentration limits on capital
      instead of assets and established concentration limits closer
      to 100 percent (or less) of capital plus ALLL;
     insisted that Ameribank hire an outside firm to periodically
      monitor and review controls over LendingOne;
     required Ameribank to risk-weight CRH loans purchased from
      LendingOne at 100 percent rather than at 50 percent prior to
      its April 2007 examination;
     detailed in the ROE its concerns when instances of
      questionable loan-to-value ratios were noted for purchased
      residential loans; and
     reviewed a representative sample of loans purchased from
      LendingOne during its field visits between July 2005 and
      April 2007.




Material Loss Review of Ameribank, Inc.                          Page 20
(OIG-09-036)
                      OTS cited the following lessons learned in its report:

                         •    Even when concentrations have been identified, it is
                              necessary to require institutions to focus on limiting these
                              concentrations as a percentage of capital plus ALLL. These
                              limits as a percentage of capital should be much closer to
                              100 percent of capital or less, depending on the risk
                              underlying the concentration.
                         •    An institution’s risk management practices must be
                              considered when there is significant exposure to purchased
                              loans from third parties who control the servicing,
                              disbursement, and collection processes.
                         •    The use of the 50 percent risk-weight for loans secured by
                              residential properties should be carefully evaluated, even
                              when the loans are performing and the loan-to-value ratios
                              are 90 percent or less.
                         •    The field visits conducted between the 2005 and 2007
                              regular examinations did not include a review of the loans
                              purchased from LendingOne. A review of loans made since
                              the prior examination should have been included within the
                              scope of the field visits.
                         •    When the final appraised values of residential loans are
                              significantly in excess of the purchase price/as is appraised
                              value plus cost to repair, concerns must be detailed in the
                              examination report.
                         •    Thrift management should be required to inform OTS in
                              writing of any disagreements, withdrawals, material
                              unrecorded audit adjustments, or auditor refusal to issue a
                              report whether or not the thrift is required to have an annual
                              audit.9 If management refuses to do so within 10 days of
                              such an event, the independent auditor should be required to
                              inform OTS in writing.




 Ameribank’s independent auditor had not issued audit reports on the thrift’s 2006 and 2007 financial
9

statements.

                      Material Loss Review of Ameribank, Inc.                                  Page 21
                      (OIG-09-036)
           The OTS team that performed the review made the following
           recommendations to the Deputy Director, Examinations,
           Supervision, and Consumer Protection, and the Managing Director,
           Supervision:

                Communicate to the thrift industry the guidance on
                 concentrations of risk provided in New Directions Bulletin
                 06-14.
                When evaluating an institution’s limits for concentrations
                 that pose significant risk, ensure that limits are set at lower
                 levels as a percentage of capital. Also, for institutions that
                 do not establish limits as a percentage of capital or establish
                 limits that are well in excess of 100 percent of capital, take
                 immediate action to address these issues.
                Provide guidance to the examination staff requiring careful
                 deliberation before they use the 50 percent risk weight for
                 residential loans for non-owner occupied property.
                Provide guidance to both the industry and examination staff
                 conveying OTS’s expectation that thrifts maintain strong
                 controls and monitoring procedures for loan programs
                 administered by third parties.

           Officials of the OTS regional office responsible for supervision of
           Ameribank stated that action has been taken to ensure that staff
           are aware of the findings of the internal failed thrift review. In
           addition, they told us that the region has developed a monitoring
           report that identifies potentially higher-risk loan activity in relation
           to core capital and risk-based capital and is using this report in
           monitoring meetings with case managers.


Recommendations
           Our material loss review of Ameribank is the third such review we
           have performed of a failed OTS-regulated financial institution during
           the current financial crisis. Appendix 6 lists the other two material
           loss reviews and our associated recommendations. OTS
           management agreed with the prior recommendations and has taken
           or is taking corrective actions to address them.

           As a result of our material loss review of Ameribank, we
           recommend that the Director of OTS do the following:

           Material Loss Review of Ameribank, Inc.                            Page 22
           (OIG-09-036)
1. Remind examiners of the risks associated with rapid growth in
   high-risk concentrations.

2. Remind examiners to conduct more thorough loan sampling
   from the portfolio if they identify a rapid increase in
   concentration.

3. Remind examiners of the examination guidance for thrift third-
   party relationships, with particular attention to the assessment
   of the risk the relationship may pose to the thrift’s safety and
   soundness.

4. Assess the need for guidance requiring risk assessment of CRH
   loans as an integral part of assessing a thrift’s overall risk.

5. Ensure that the recommendations and the lessons learned from
   OTS’s internal assessment of the Ameribank failure are
   implemented.

Management Response

OTS concurs with the recommendations and plans to implement
them by August 2009.

                             * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-6512 or Maria V. Carmona, Audit
Manager, at (202) 927-6345. Major contributors to this report are
listed in appendix 8.


/s/

Michael J. Maloney
Audit Director




Material Loss Review of Ameribank, Inc.                      Page 23
(OIG-09-036)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Ameribank, Inc., of
                        Northfork, West Virginia, in response to our mandate under section
                        38(k) of the Federal Deposit Insurance Act, as amended. 10 This
                        section provides that if a deposit insurance fund incurs a material
                        loss with respect to an insured depository institution, the inspector
                        general for the appropriate federal banking agency is to prepare a
                        report to the agency, which shall

                              ascertain why the institution’s problems resulted in a
                               material loss to the insurance fund;
                              review the agency’s supervision of the institution, including
                               its implementation of the Prompt Corrective Action
                               provisions of section 38; and
                              make recommendations for preventing any such loss in the
                               future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of Ameribank based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of December 31, 2008, FDIC estimated that Ameribank’s failure
                        would cost the Deposit Insurance Fund $33.4 million.

                        To accomplish our review, we conducted fieldwork at the Office of
                        Thrift Supervision’s (OTS) headquarters in Washington, D.C.; its
                        district offices in Jersey City, New Jersey, and Chicago, Illinois;
                        and its field office in Pittsburgh, Pennsylvania. We also performed
                        work at the FDIC Division of Resolutions and Receiverships in
                        Dallas, Texas, and interviewed its officials and those of the FDIC
                        Division of Supervision and Consumer Protection.

                        To assess the adequacy of OTS’s supervision of Ameribank, we
                        conducted audit work to determine (1) when OTS first identified
                        Ameribank’s safety and soundness problems, (2) the gravity of the
                        problems, and (3) the supervisory response OTS took to get the


10
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Ameribank, Inc.                         Page 24
                        (OIG-09-036)
Appendix 1
Objectives, Scope, and Methodology




thrift to correct the problems. We also performed audit work to
determine whether OTS (1) might have discovered problems earlier;
(2) identified and reported all the problems; and (3) issued
comprehensive, timely, and effective enforcement actions that
dealt with any unsafe or unsound activities. Specifically, we
performed the following work:

     We determined that the time period covered by our audit
      would be July 2002 through Ameribank’s failure on
      September 19, 2008. This period included three safety and
      soundness examinations prior to OTS’s identifying
      Ameribank as a troubled institution and assigning it a
      composite CAMELS rating of 4. We reviewed OTS
      supervisory files and records for Ameribank from 2002
      through 2008. We analyzed examination reports, supporting
      workpapers, and related supervisory and enforcement
      correspondence. We performed these analyses to gain an
      understanding of the problems identified, the approach and
      methodology OTS used to assess the thrift’s condition, and
      the regulatory action OTS used to compel thrift management
      to address deficient conditions. We did not conduct an
      independent or separate detailed review of the external
      auditor’s work or associated workpapers other than those
      incidentally available through the supervisory files.

     We interviewed and discussed various aspects of the
      supervision of Ameribank with OTS officials, examiners, and
      attorneys to obtain their perspective on the thrift’s condition
      and the scope of the examinations. We also interviewed
      FDIC officials who were responsible for monitoring
      Ameribank for federal deposit insurance purposes.

     We interviewed FDIC Division of Resolutions and
      Receiverships personnel who were involved in the
      receivership process, which was conducted before and after
      Ameribank’s closure and the appointment of a receiver.

     We assessed OTS’s actions based on its internal guidance
      and the requirements of the Federal Deposit Insurance Act,
      at 12 U.S.C. §1811 et seq.



Material Loss Review of Ameribank, Inc.                        Page 25
(OIG-09-036)
Appendix 1
Objectives, Scope, and Methodology




We conducted our fieldwork from October 2008 through February
2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Material Loss Review of Ameribank, Inc.                      Page 26
(OIG-09-036)
                      Appendix 2
                      Background




                      Ameribank History

                      Corporate Structure and Other Background Information

                      Ameribank was a stock-form, federally chartered savings
                      association, the deposits of which were insured by the Federal
                      Deposit Insurance Corporation (FDIC). Ameribank was a wholly
                      owned subsidiary of American Bankshares, Inc. (ABI), which is a
                      wholly-owned subsidiary of OAX Partners, LLLP (OAX). Both ABI
                      and OAX are registered savings and loan holding companies with
                      no material businesses or activities other than holding stock. The
                      chairman of OAX, his family, and related entities own 100 percent
                      of the equity interests, which are not publicly traded.11

                      Ameribank opened for business in West Virginia and became
                      subject to Office of Thrift Supervision (OTS) regulation on May 2,
                      1997. Its predecessor had incorporated in 1906 as a state-
                      chartered commercial bank. Ameribank had its main office in
                      Northfork, West Virginia, and seven branch offices located in West
                      Virginia and Ohio. In addition, Ameribank owned an 80 percent
                      interest in Ameribank Mortgage Company, LLC, an operating
                      subsidiary headquartered in Williston, Vermont.

                      Until 2003, growth had been limited to and by the West Virginia
                      market. In August 2003, Ameribank engaged a new Florida-based
                      management team and entered the Florida market. Ameribank
                      entered into a loan sales and servicing agreement in May 2004
                      with Bristol Home Mortgage Lending, LLC d/b/a LendingOne.
                      LendingOne was a Florida-based third-party originator for the
                      financing of highly speculative construction rehabilitation of real
                      property, secured by mortgages on those properties, located
                      throughout an 11-state territory. These loans were known as
                      construction rehabilitation account (CRH) loans.

                      Initially, Ameribank was only a minor pool investor in the CRH
                      loans from LendingOne. In 2004, the thrift greatly expanded the
                      relationship to include a $1 million line of credit, a formal
                      commitment to purchase monthly CRH loan production, and the


11
  Approximately 45 minority shareholders, who in aggregate held less than 15 percent of the
outstanding shares of common stock, were cashed out by means of a reverse stock split in 2006.

                      Material Loss Review of Ameribank, Inc.                                Page 27
                      (OIG-09-036)
Appendix 2
Background




development of a program to originate permanent long-term
mortgages to end purchasers (also known as end loans) of the
renovated properties. In January 2005, Ameribank entered the
Ohio market through its acquisition of Steel Valley Bank. By
June 30, 2005, Ameribank’s assets based in West Virginia
($36.5 million) were less than its assets based in Florida
($52.3 million) or Ohio ($46.9 million).

At the end of 2006 and beginning of 2007, the Florida-based
management team, which had been primarily responsible for
overseeing the LendingOne relationship, left Ameribank.

Appendix 4 contains a chronology of significant events regarding
Ameribank.

Types of Examinations Conducted by OTS

OTS conducts various types of examinations including safety and
soundness, compliance, and information technology.

OTS must schedule full-scope, onsite examinations of insured
thrifts once during either a 12-month cycle or an 18-month cycle.
All de novo thrifts are subject to the 12-month examination cycle.
The 12-month cycle should continue until the thrift’s management
has demonstrated its ability to operate the institution in a safe and
sound manner and satisfied all conditions imposed at the time of
approval.

An 18-month examination interval applies to insured thrifts with
total assets of $250 million or less that:
   • for the most recent examination received a composite
       CAMELS rating of 1 or 2 and a Compliance rating of 1 or 2;
   • for the most recent examination received a Management
       component rating of 1 or 2;
   • is well capitalized;
   • is not currently subject to a formal enforcement proceeding
       or order by the OTS or the FDIC; and
   • has not undergone a change in control during the 12-month
       period since completion of the last full-scope, onsite
       examination.



Material Loss Review of Ameribank, Inc.                         Page 28
(OIG-09-036)
Appendix 2
Background




During a full-scope examination, examiners conduct an onsite
examination and rate all CAMELS components. The six components
are Capital Adequacy, Asset Quality, Management, Earnings,
Liquidity, and Sensitivity to Market Risk (CAMELS). OTS then
assigns each thrift a composite rating based on its assessment of
the overall condition and level of supervisory concern. The rating
scale ranges from 1 to 5, with a rating of 1 indicating the strongest
performance and risk management practices relative to the thrift’s
size, complexity, and risk profile; and the level of least supervisory
concern. A 5 rating indicates the most critically deficient level of
performance; inadequate risk management practices relative to the
thrift’s size, complexity, and risk profile; and the greatest
supervisory concern. Generally, component ratings reflect
examination findings and an examiner’s assessment of thrift’s
performance in the six key performance groups that are common to
all thrifts.

Enforcement Actions Available to OTS

OTS performs various examinations of thrifts resulting in the
issuance of reports of examinations (ROE) identifying areas of
concern. OTS uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions

When a thrift’s overall condition is sound, but it is necessary to
obtain written commitments from a thrift’s board of directors or
management to ensure that it will correct the identified problems
and weaknesses, OTS may use informal enforcement actions. OTS
commonly uses informal actions for problems in

    •   well- or adequately-capitalized thrifts and
    •   thrifts with a composite rating of 1, 2, or 3.

Informal actions notify the board and management that OTS has
identified problems that warrant attention. A record of informal
action is beneficial in case formal action is necessary later.




Material Loss Review of Ameribank, Inc.                        Page 29
(OIG-09-036)
Appendix 2
Background




If a thrift violates or refuses to comply with an informal action,
OTS cannot enforce compliance in federal court or assess civil
money penalties for noncompliance. However, OTS may initiate
more severe enforcement action against a noncompliant thrift. The
effectiveness of informal action depends in part on the willingness
and ability of a thrift to correct deficiencies that OTS notes.

Informal enforcement actions include supervisory directives,
memoranda of understanding, and board resolutions.

Formal Enforcement Actions

If informal tools do not resolve the problem, OTS is to use formal
enforcement tools.

Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act. They are appropriate when a thrift has
significant problems, especially when there is a threat of harm to
the thrift, depositors, or the public. OTS is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems.

Because formal actions are enforceable, OTS can assess civil
money penalties against thrifts and individuals for noncompliance
with a formal agreement or final orders. OTS can also request a
federal court to require the thrift to comply with an order. Unlike
informal actions, formal enforcement actions are public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and Prompt Corrective Action directives.

OTS Enforcement Guidelines

Considerations for determining whether to use informal action or
formal action include the following:

 the extent of actual or potential damage, harm, or loss to the
  thrift because of the action or inaction;




Material Loss Review of Ameribank, Inc.                        Page 30
(OIG-09-036)
Appendix 2
Background




 whether the thrift has repeated the illegal action or unsafe or
  unsound practice;

 the likelihood the conduct may occur again;

 the thrift’s record for taking corrective action in the past;

 the capability, cooperation, integrity, and commitment of the
  thrift’s management, board of directors, and ownership to
  correct identified problems;

 the extent to which the identified problems were preventable
  and not solely the result of external factors;

 the effect of the illegal, unsafe, or unsound conduct on other
  financial institutions, depositors, or the public;

 the examination rating of the thrift;

 whether the thrift’s condition is improving or deteriorating; and

 the presence of unique circumstances.




Material Loss Review of Ameribank, Inc.                           Page 31
(OIG-09-036)
                    Appendix 3
                    Glossary




Allowance for loan and              A valuation reserve established and maintained by
lease losses (ALLL)                 charges against the financial institution’s operating
                                    income. As a valuation reserve, it is an estimate of
                                    uncollectible amounts that is used to reduce the book
                                    value of loans and leases to the amount that is
                                    expected to be collected. These valuation allowances
                                    are established to absorb unidentified losses inherent
                                    in the institution’s overall loan and lease portfolio.

Board Resolution                    A document designed to address one or more specific
                                    concerns identified by the Office of Thrift Supervision
                                    (OTS) and adopted by a thrift's board of directors.

Broker price opinion                An estimate of probable selling price of a residential
                                    property based on selling prices of comparable
                                    properties in the area or a drive-by inspection, often
                                    used by a mortgage servicer as an alternative to a full
                                    property appraisal when a loan is placed in default or
                                    loan terms are modified. A broker price opinion may
                                    also be called a comparative market analysis.

CAMELS                              An acronym for performance rating components for
                                    financial institutions: Capital adequacy, Asset quality,
                                    Management administration, Earnings, Liquidity, and
                                    Sensitivity to market risk. Numerical values range from
                                    1 to 5, with 1 being the best rating and 5 being the
                                    worst. OTS uses the CAMELS rating system to
                                    evaluate a thrift’s overall condition and performance
                                    by assessing each of the six rating components and
                                    assigning numerical values. OTS then assigns each
                                    thrift a composite rating based on its assessment of
                                    the overall condition and level of supervisory concern.

Capital restoration plan            A plan submitted to the appropriate federal banking
                                    agency by any undercapitalized insured depository
                                    institution. A capital restoration plan specifies the
                                    steps the insured depository institution is to take to
                                    become adequately capitalized, the levels of capital to
                                    be attained during each year in which the plan is in
                                    effect, how the institution is to comply with the


                    Material Loss Review of Ameribank, Inc.                          Page 32
                    (OIG-09-036)
                   Appendix 3
                   Glossary




                                   restrictions or requirements then in effect, the types
                                   and levels of activities in which the institution is to
                                   engage, and any other information that the federal
                                   banking agency may require.

Cease and desist (C&D) order       A type of OTS formal enforcement action. A C&D
                                   order normally requires the thrift to correct a violation
                                   of law or regulation, or an unsafe or unsound practice.
                                   OTS may issue a C&D order in response to violations
                                   of federal banking, securities, or other laws by thrifts
                                   or individuals, or if it believes that an unsafe and
                                   unsound practice or violation is about to occur.

Classified asset                   A loan or other asset that in the opinion of examiners
                                   is at risk to some degree. Such assets fail to meet
                                   acceptable credit standards. The totals for classified
                                   loans are reported separately in the thrift financial
                                   report. Examiners have adopted uniform guidelines
                                   listing poorly performing loans as follows: (1) loss, or
                                   complete write-off; (2) doubtful, where repayment in
                                   full is questionable; (3) substandard, where some loss
                                   is probable unless corrective actions are taken; and
                                   (4) special mention, indicating potential problems such
                                   as missing documentation or insufficient collateral.
                                   Supervisory agencies require that lenders write down
                                   loans classified as doubtful to 50 percent of the
                                   original book value and loans classified as loss by
                                   100 percent in calculating the net capital available for
                                   making new loans.

Compliance                         The portion of a financial institution examination that
                                   includes an assessment of how well the institution
                                   manages compliance with consumer protection and
                                   public interest laws and regulations.

Concentration                      As defined by OTS, a group of similar types of assets
                                   or liabilities that, when aggregated, exceed 25 percent
                                   of a thrift’s core capital plus ALLL. Concentrations
                                   may include direct, indirect, and contingent obligations
                                   or large purchases of loans from a single counterparty.
                                   Some higher-risk asset or liability types (e.g., residual


                   Material Loss Review of Ameribank, Inc.                            Page 33
                   (OIG-09-036)
                     Appendix 3
                     Glossary




                                     assets) may warrant monitoring as concentrations
                                     even if they do not exceed 25 percent of core capital
                                     plus ALLL.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers. If loans are
                                     more broadly distributed, weaknesses confined to one
                                     or a small number of sectors, areas, or borrowers
                                     would pose a smaller risk to the institution’s financial
                                     health.

Comprehensive examination            A combined examination of an institution’s safety and
                                     soundness and its compliance with applicable rules
                                     and regulations.

Equity capital                       Invested money that, in contrast to debt capital, is not
                                     repaid to the investors in the normal course of
                                     business. It represents the risk capital staked by the
                                     owners through purchase of a thrift’s common stock
                                     (ordinary shares). Its value is computed by estimating
                                     the current market value of everything owned by a
                                     thrift, from which the total liabilities are subtracted.
                                     On the balance sheet of a thrift, equity capital is listed
                                     as stockholders’ equity or owners’ equity. It is also
                                     called equity financing or share capital. Equity capital
                                     is the initial funding (called contributed capital or
                                     paid-in capital) needed to charter a thrift; a cushion
                                     against operating losses, such as bad debt; and a
                                     source of protection for depositors’ money.

FICO score                           A credit score provided to lenders by a credit reporting
                                     bureau to reflect information that the bureau keeps on
                                     file about the borrower. A score is produced using
                                     software developed by the Fair Isaac Corporation
                                     (FICO). The software takes into consideration
                                     borrower information such as (1) timeliness of
                                     payments; (2) the length of time credit has been
                                     established; (3) the amount of credit used versus the
                                     amount of credit available; (4) the length of time at


                     Material Loss Review of Ameribank, Inc.                            Page 34
                     (OIG-09-036)
                      Appendix 3
                      Glossary




                                      present residence; and (5) negative credit information
                                      such as bankruptcies, charge-offs, and collections.
                                      The higher the credit score is, the lower the risk to the
                                      lender.

Field visit                           A visit conducted to review specific areas of concern
                                      that OTS has about an institution.

Incentive reserve                     A sum equal to 1.00 percent (on 9/1/05 changed to
                                      0.75 percent) of the loans included in each group sold
                                      to Ameribank by LendingOne as an incentive for
                                      LendingOne’s diligent servicing of the loans. For
                                      example, if LendingOne sold Ameribank $1,000,000
                                      of loans in May 2004, the incentive reserve for that
                                      month’s group of loans would be $10,000.

Information technology (IT)           An examination that includes review and evaluation of
examination                           the overall management of information systems used
                                      by a thrift, as well as the effectiveness of the internal
                                      audit and security functions for those systems.

Loan-to-value ratio                   A ratio for a single loan and property calculated by
                                      dividing the total loan amount at origination by the
                                      market value of the property securing the credit plus
                                      any readily marketable collateral or other acceptable
                                      collateral. In accordance with Interagency Guidelines
                                      for Real Estate Lending Policies (app. to 12 C.F.R.
                                      560.101), institutions’ internal loan-to-value limits
                                      should not exceed (1) 65 percent for raw land;
                                      (2) 75 percent for land development; and
                                      (3) 80 percent for commercial, multifamily, and other
                                      nonresidential loans. The guidelines do not specify a
                                      limit for owner-occupied one- to four-family properties
                                      and home equity loans. However, when the loan-to-
                                      value ratio on such a loan equals or exceeds
                                      90 percent at the time of origination, the guidelines
                                      state that the thrift should require mortgage insurance
                                      or readily marketable collateral.




                      Material Loss Review of Ameribank, Inc.                            Page 35
                      (OIG-09-036)
                   Appendix 3
                   Glossary




Loans to one borrower              A regulation that imposes lending limitations on
regulation                         thrifts to avoid the risk of concentrating too great a
                                   portion of their assets in any single borrower or in
                                   borrowers related in a common enterprise (12 C.F.R.
                                   560.93). It limits the aggregate dollar amount of a
                                   thrift’s loans to each borrower but does not limit the
                                   number of loans within that aggregate dollar amount.

Matter requiring                   A practice noted during an OTS examination of
board attention                    a thrift that deviates from sound governance, internal
                                   control, and risk management principles. The matter,
                                   if not addressed, may adversely affect the thrift’s
                                   earnings or capital, risk profile, or reputation or may
                                   result in substantive noncompliance with laws and
                                   regulations, internal policies or processes, OTS
                                   supervisory guidance, or conditions imposed in writing
                                   in connection with the approval of any application or
                                   other request by the institution. Although matters
                                   requiring board attention are not formal enforcement
                                   actions, OTS requires that thrifts address them.
                                   A thrift’s failure to do so may result in a formal
                                   enforcement action.

Mortgage broker                    An intermediary that brings mortgage borrowers and
                                   mortgage lenders together but does not use its own
                                   funds to originate mortgages. A mortgage broker
                                   gathers paperwork from a borrower and passes it
                                   along to a mortgage lender for underwriting and
                                   approval. The mortgage funds are then lent in the
                                   name of the mortgage lender. A mortgage broker
                                   collects an origination fee and/or a yield spread
                                   premium from the lender as compensation for its
                                   services. A mortgage broker differs from a mortgage
                                   banker, which closes and funds a mortgage with its
                                   own funds. Mortgage brokers frequently facilitate
                                   transactions for mortgage bankers.

Net debit cap                      The maximum dollar amount of uncollateralized
                                   daylight overdrafts that an institution may incur in its
                                   Federal Reserve account. A daylight overdraft results
                                   when an institution has insufficient funds in its Federal


                   Material Loss Review of Ameribank, Inc.                           Page 36
                   (OIG-09-036)
                    Appendix 3
                    Glossary




                                    Reserve account to cover its settlement obligations.
                                    An institution with a net debit cap of zero may not
                                    incur daylight overdrafts.

Prompt Corrective Action            A framework of supervisory actions, set forth in
                                    12 U.S.C. §1831o, for insured depository institutions
                                    that are not adequately capitalized. It was intended to
                                    ensure that action is taken when an institution
                                    becomes financially troubled in order to prevent a
                                    failure or minimize resulting losses. These actions
                                    become increasingly severe as a thrift falls into lower
                                    capital categories. The capital categories are well-
                                    capitalized, adequately capitalized, undercapitalized,
                                    significantly undercapitalized, and critically
                                    undercapitalized. The Prompt Corrective Action
                                    minimum requirements are as follows:

                                       Total                  Tier 1/              Tier 1/
                                       Risk-Based             Risk-Based           Leverage

             Well capitalizeda         10% or         and     6% or         and    5% or greater
                                       greater                greater

             Adequately                8% or          and     4% or         and    4% or greater
             Capitalized               greater                greater              (3% for 1-rated)

             Undercapitalized          Less           or      Less          or     Less than 4%
                                       than 8%                than 4%              (except for 1-rated)

             Significantly             Less           or      Less          or     Less than 3%
             Undercapitalized          than 6%                than 3%

             Critically                Has a ratio of tangible equity to total assets that is equal
             Undercapitalized          to or less than 2 percent. Tangible equity is defined in
                                       12 C.F.R. § 565.2(f).

             a
              To be well capitalized, a thrift also cannot be subject to a higher capital requirement
             imposed by OTS.

Real estate owned                   Real property that a thrift holds as a consequence of
                                    defaults on loans. It is typically a poor or non-earning
                                    asset and a thrift’s acquisition of a limited amount is
                                    an unavoidable result of normal business operations.



                    Material Loss Review of Ameribank, Inc.                                        Page 37
                    (OIG-09-036)
                     Appendix 3
                     Glossary




Risk-weighted asset                  An asset rated by risk to establish the minimum
                                     amount of capital that is required within institutions.
                                     To weight assets by risk, an institution must assess
                                     the risk associated with the loans in its portfolio;
                                     institutions whose portfolios hold more risk require
                                     more capital.

Safety and soundness                 The part of an examination that includes a review and
                                     evaluation of each of the component CAMELS ratings
                                     (see explanation of CAMELS, above).

Supervisory Directive                A directive to a thrift to cease an activity or take an
                                     affirmative action to remedy or prevent an unsafe or
                                     unsound practice.

Third party                          Any entity that has entered into a business
                                     relationship with an insured depository institution.
                                     A third party may be a bank or a nonbank entity,
                                     affiliated or not affiliated, regulated or nonregulated,
                                     domestic or foreign.

Thrift financial report              A financial report that thrifts are required to file
                                     quarterly with the OTS. The report includes detailed
                                     information about the institution's operations and
                                     financial condition and must be prepared in
                                     accordance with generally accepted accounting
                                     principles. The thrift financial report is similar to the
                                     call report required of commercial banks.

Tier 1 (core) capital                Represents common shareholder’s equity (common
                                     stock, surplus, and retained earnings), noncumulative
                                     perpetual preferred stock, and minority interests in the
                                     equity accounts of consolidated subsidiaries. In
                                     accordance with the Financial Institutions Reform,
                                     Recovery, and Enforcement Act of 1989, OTS
                                     requires that Tier 1 capital represent 4 percent of total
                                     assets, or 3 percent for thrifts with a CAMELS
                                     composite rating of 1, adjusted for investment in
                                     subsidiaries, gains and losses on available-for-sale
                                     securities, and certain hedges.



                     Material Loss Review of Ameribank, Inc.                              Page 38
                     (OIG-09-036)
           Appendix 3
           Glossary




Troubled                   A condition in which a thrift meets any of the criteria
                           below:

                           • OTS notifies it in writing that it has been assigned
                             a composite CAMELS rating of 4 or 5.
                           • It is subject to a capital directive, a C&D order, a
                             consent order, a formal written agreement, or a
                             prompt corrective action directive relating to its
                             safety and soundness or financial viability.
                           • OTS informs it, in writing, of its troubled condition
                             based on information available to OTS. Such
                             information may include current financial
                             statements and reports of examination.




           Material Loss Review of Ameribank, Inc.                           Page 39
           (OIG-09-036)
                   Appendix 4
                   Chronology of Significant Events




The following chronology describes significant events in the history of Ameribank,
including examinations conducted and enforcement actions taken by the Office of
Thrift Supervision (OTS). For additional information on the results of examinations,
including any significant safety and soundness matters requiring board attention and
recommended actions, see appendix 5, which also states the purpose for each field
visit.

 4/30/1997        OTS approves Ameribank’s conversion to a federally chartered
                  savings bank from a state-chartered commercial bank. Ameribank
                  opens for business in Northfork, WV, 2 days later.

 8/30/1999        OTS begins an examination that is completed on 10/8/1999 with
                  ratings of 2/222111.

 9/9/1999         Ameribank executes an agreement with the Federal Deposit
                  Insurance Corporation (FDIC) to acquire local deposits from failed
                  First National Bank of Keystone, WV, assuming $135 million in
                  local deposits.

 4/18/2001        OTS begins an examination that is completed on 6/22/2001 with
                  ratings of 2/223212.

 6/1/2001         Ameribank discontinues its Charlotte, NC, loan operation.

 7/22/2002        OTS begins an examination that is completed on 9/18/2002 with
                  ratings of 2/222211.

 8/1/2002         Ameribank discontinues its Winston-Salem, NC, loan operation.

 6/1/2003         Ameribank elects the President of the FL branch (Ameribank-FL) to
                  Ameribank's board of directors.

 8/4/2003         Ameribank opens a Palm Beach Gardens, FL, branch following
                  OTS's 6/16/2003 approval of its application for this purpose.

 11/12/2003       OTS begins a field visit to analyze the FL branch.




                   Material Loss Review of Ameribank, Inc.                        Page 40
                   (OIG-09-036)
             Appendix 4
             Chronology of Significant Events




4/12/2004    OTS begins an examination that is completed on 7/11/2004 with
             ratings of 2/222311.

4/23/2004    Ameribank’s Vice Chairman approves a loan proposal for $1 million
             line of credit with LendingOne, a Florida State licensed mortgage
             lender originating loans throughout the state. A promissory note is
             signed 6 days later for that amount.

5/19/2004    Ameribank’s mortgage loan sale and servicing agreement with
             LendingOne becomes contractually effective. Ameribank commits
             to purchase between $750,000 and $2 million of construction
             rehabilitation account (CRH) loans per month, with a reserve of
             1.00 percent and a yield to Ameribank of prime (P)+2.50 percent.

6/30/2004    Ameribank approves LendingOne CRH loans through a mortgage
             lender. The maximum loan-to-value is 80 percent, with a
             competitive adjustable interest rate, for one- to four-family homes
             fully leased at the time the loan is guaranteed.

7/30/2004    Ameribank’s board asks the President of Ameribank-FL how easily
             the thrift could manage new business with LendingOne and
             requests a liquidity-needs schedule.

9/30/2004    Ameribank focuses on developing new business opportunities,
             including its program with LendingOne. Ameribank’s management
             states that it believes the growth in the mortgage portfolio allows
             Ameribank to put safe and sound loans on the books at an
             attractive rate.

10/25/2004   OTS begins a field visit to analyze the FL branch.

11/30/2004   Ameribank’s FL branch is 14 months ahead of schedule in reaching
             profitability. The loan portfolio outstanding is $3 million ahead of
             regulator projections without an additional office or two additional
             loan officers as originally projected.




             Material Loss Review of Ameribank, Inc.                        Page 41
             (OIG-09-036)
            Appendix 4
            Chronology of Significant Events




1/7/2005    Ameribank enters the Ohio market by acquiring Steel Valley Bank
            of Dillonvale.

1/27/2005   Ameribank appoints the President of the FL branch to the position
            of President/Chief Executive Officer (CEO).

2/11/2005   Ameribank increases the LendingOne line of credit to
            $1.95 million.

3/1/2005    The first amendment to Ameribank’s loan agreement with
            LendingOne becomes effective. Ameribank’s yield decreases to
            P+1.50 percent.

3/7/2005    OTS begins a field visit.

3/17/2005   During a board meeting, Ameribank’s CEO and the Executive Vice
            President (EVP)/Senior Risk Officer (SRO) discuss the LendingOne
            concentrations. The board is informed of LendingOne balances
            outstanding, performance, and underwriting standards in
            accordance with approved loan policy. The CEO states that OTS
            wants the board to discuss possibly limiting growth in the
            LendingOne portfolio and, if a decision is made not to limit the
            growth, to state in the minutes that a decision was made to
            continue the growth. After discussion, the board decides not to set
            limitations on the LendingOne portfolio. The board requests that
            management prepare a quarterly analysis of the LendingOne
            portfolio performance and growth. The results of the analysis are
            to be presented in the allowance for loan and lease losses (ALLL)
            narrative that the EVP/SRO prepares and is to be discussed in
            detail at board meetings.

4/21/2005   During a board meeting, Ameribank’s CEO discusses an OTS
            request that the board set concentration limits on the LendingOne
            portfolio based on a percentage of assets or capital. The board will
            continue to evaluate the necessity of setting a percentage of
            assets limitation on a quarterly basis or earlier if needed.




            Material Loss Review of Ameribank, Inc.                        Page 42
            (OIG-09-036)
             Appendix 4
             Chronology of Significant Events




5/2/2005     OTS approves Ameribank Mortgage Company, LLC (AMC), as a
             new operating subsidiary. AMC has as its primary objective the
             establishment of loan production offices to originate and sell
             residential mortgage loans, as a new operating subsidiary.

5/24/2005    During a board meeting, Ameribank’s CEO states that he and the
             EVP/SRO visited OTS on 5/16/05 and lets the board know that
             management has decided to set limitations on LendingOne loans at
             30 percent of assets for CRH loans and 10 percent of assets for
             end loans and that OTS is satisfied with this.

7/5/2005     OTS begins an examination that is completed on 8/24/2005 with
             ratings of 2/221211.

9/1/2005     The second amendment to Ameribank’s loan agreement with
             LendingOne becomes effective. It adjusts Ameribank's yield to
             P+1.50 percent when a borrower’s FICO score is below 700 and
             to P+1.25 percent when a borrower’s FICO score is above 700.
             The incentive reserve is reduced to 0.75 percent from
             1.00 percent of monthly loans closed.

11/14/2005   OTS begins a field visit for the FL and OH branches.

11/15/2005   OTS begins a field visit for AMC.

1/19/2006    During a board meeting, the EVP/SRO discusses the quarterly ALLL
             analysis and narrative, including LendingOne concentrations.

2/1/2006     Ameribank’s external auditor issues consolidated financial
             statements as of 12/31/2005. The opinion is unqualified.

2/16/2006    During a board meeting, Ameribank’s CEO talks about the third
             amendment to Ameribank’s loan agreement with LendingOne. The
             CEO will be countering with a higher rate and contingencies
             concerning volume.




             Material Loss Review of Ameribank, Inc.                      Page 43
             (OIG-09-036)
            Appendix 4
            Chronology of Significant Events




3/1/2006    The third amendment to Ameribank’s loan agreement with
            LendingOne becomes effective. It adds a new construction
            program, reduces Ameribank's yield to P+0.25 percent, and
            requires LendingOne to maintain at least $3 million in escrow
            deposits at Ameribank.

3/16/2006   During a board meeting, Ameribank’s CEO discusses in detail the
            third amendment to Ameribank’s loan agreement with LendingOne.
            LendingOne is to provide Ameribank with $4.5 million in CRH loans
            per month. If this volume is not met, LendingOne is to pay a
            penalty fee equal to 0.25 percent of the amount by which the
            volume is short of $4.5 million.

4/20/2006   During a board meeting, Ameribank’s CEO states that he is having
            a business valuation done on LendingOne in contemplation of the
            Ameribank holding company making a 10 percent investment in
            LendingOne.

5/18/2006   During a board meeting, Ameribank’s Senior Vice President/
            Workout and Collections Officer (SVP/WCO) discusses
            LendingOne’s performance and the end loan product. The board
            concurs in management's decision to eliminate the end loan
            product because it is not performing as envisioned. At the end of
            the quarter, this portfolio totaled $5.3 million with 70 loans. Also,
            the CEO and the Vice Chairman discuss a meeting they had with
            LendingOne management regarding the future. All parties are
            happy with the relationship.

6/26/2006   OTS begins a field visit.

7/20/2006   During a board meeting, Ameribank’s CEO requests modification of
            LendingOne concentration limits, to decrease end loans to
            5 percent of assets (from 10 percent) and increase CRH loans to
            35 percent of assets (from 30 percent). The motion passes
            unanimously.




            Material Loss Review of Ameribank, Inc.                         Page 44
            (OIG-09-036)
             Appendix 4
             Chronology of Significant Events




9/22/2006    During a board meeting, an Ameribank director asks about the
             impact of the LendingOne relationship on financial performance
             and expresses concern over the lack of production in other areas
             of the thrift. The CEO responds that management has the same
             concerns and is actively seeking other niche lending areas. The
             EVP/Marketing informs the board that LendingOne has signed the
             systems servicing agreement and that conversion of the
             LendingOne loan portfolio to Ameribank’s core system will occur in
             April 2007.

11/1/2006    During a board meeting, an Ameribank director questions the
             LendingOne concentration levels. The EVP/SRO recommends that
             the overall level of LendingOne loans remain at 40 percent with a
             revised split between CRH loans and end loans. The board
             approves modification of the limits to 38 percent of assets for CRH
             loans and 2 percent of assets for end loans.

12/1/2006    Ameribank’s CEO resigns.

12/21/2006   During a board executive committee meeting, Ameribank’s
             Chairman discusses the results of a meeting with LendingOne
             representatives. Business risk due to concentrations of credit is
             then discussed. The Chairman states that there are several ways
             of diversifying risk. One would be sale of some loans and another
             would be acquisitions. Up to this point, LendingOne has been
             taking all the losses, but Ameribank will begin to share in the
             losses on a pro-rata basis. LendingOne wants to raise a substantial
             sum of money and is prepared to release a memo of
             offering. LendingOne is prepared to sell up to half of the
             company. The Chairman informs the executive committee that an
             Ameribank director is considering buying LendingOne.

1/17/2007    Ameribank’s EVP/SRO and SVP/WCO resign.

1/18/2007    Chairman takes direct management control of Ameribank due to
             the departure of the CEO.




             Material Loss Review of Ameribank, Inc.                       Page 45
             (OIG-09-036)
                       Appendix 4
                       Chronology of Significant Events




     4/16/2007         OTS begins an examination. In a report dated 5/25/2007, OTS
                       downgrades Ameribank’s ratings to 4/344-2-.12 Upon completion
                       of the examination on 8/10/2007 the ratings are 4/344322.

     5/1/2007          Ameribank directors meet with OTS officials to discuss
                       examination findings. Ameribank reaches an operating parameters
                       agreement that incorporates many of the items that will be
                       included in the Supervisory Directive.

     6/2007 and        Ameribank receives capital infusions totaling $4 million in response
     7/2007            to the Supervisory Directive.

     8/31/2007         Ameribank stops accepting new loans under the LendingOne
                       agreement.

     9/15/2007         OTS authorizes an inquiry into Ameribank’s relationship with
                       LendingOne.

     10/1/2007         OTS begins an examination. In a report dated 1/7/2008, OTS
                       downgrades Ameribank’s ratings to 4/454432. Upon completion of
                       the examination on 5/7/2008 the ratings are 5/554543. OTS
                       begins a continuing onsite presence.

     10/1/2007         Ameribank appoints a new CEO and Chairman of the Board.

     10/19/2007        OTS restricts Ameribank’s operations and prohibits further
                       increases in LendingOne assets in a cease and desist (C&D) order.

     10/22/2007        FDIC joins OTS in the examination that began on 10/1/2007 and
                       remains onsite until the thrift is placed into receivership.




  The report does not reflect revised ratings for two elements. Inserting the ratings from the prior
12

examination for these elements results in a rating of 4/344221.

                       Material Loss Review of Ameribank, Inc.                                     Page 46
                       (OIG-09-036)
               Appendix 4
               Chronology of Significant Events




10/26/2007     The Federal Reserve Bank-Richmond issues a letter placing
               Ameribank's Federal Reserve account on real-time monitoring. The
               net debit cap is reduced to a zero cap.

11/1/2007      Ameribank assumes complete control over loan servicing for all of
               its LendingOne loans and orders broker price opinions for every
               loan affiliated with LendingOne.

1/7/2008       OTS begins an examination in advance of an FDIC insurance
               premium assessment. Ratings of 4/454432 are assigned.

5/7/2008       Financial statements for 2006 and 2007 are unaudited as of the
               end of the OTS examination.

5/13/2008      OTS begins pursuit of civil money penalties based on the thrift's
               failure to comply with the C&D order capital requirements.

5/22/2008      In a Supervisory Directive, OTS deems Ameribank's holding
               companies to be in Troubled condition.

5/27/2008      OTS begins a field visit.

6/10/2008      Ameribank submits to OTS and FDIC an action plan designed to
               protect the insurance fund and preserve the thrift.

6/30/2008      Ameribank submits a capital plan centered on provision of an
               additional $4 million from its holding company Chairman.

3rd Qtr 2008   After a second round of CRH broker price opinion valuations, the
               Ameribank CEO advises OTS that it expects $1 million in loan
               losses through 6/30/2008 and that additional portfolio and real
               estate owned losses and operating losses through year-end will
               likely again result in a lack of C&D order capital compliance.

7/16/2008      OTS deems Ameribank significantly undercapitalized. OTS requires
               the filing of a capital restoration plan no later than 7/31/2008 and
               places a Prompt Corrective Action (PCA) directive and other
               restrictions on Ameribank.




               Material Loss Review of Ameribank, Inc.                        Page 47
               (OIG-09-036)
            Appendix 4
            Chronology of Significant Events




7/31/2008   Ameribank is unable to come up with a capital restoration plan
            suitable to raise capital levels to Adequately Capitalized.

8/8/2008    Ameribank advises OTS that it is at the Critically Undercapitalized
            level.

8/11/2008   OTS deems Ameribank Critically Undercapitalized. OTS sends a
            Notice of Intent To Issue a PCA Directive and Consent for
            Appointment of a Receiver.

8/18/2008   Ameribank consents to the PCA Directive.

8/25/2008   The PCA Directive becomes effective, requiring restoration of
            capital to Adequately Capitalized by 9/8/2008.

8/25/2008   Ameribank closes its FL branch.

9/10/2008   Ameribank informs OTS that, as of 8/31/2008, it was
            unsuccessful in attempts to raise capital and is not expecting to
            raise additional capital from the holding company owner.
            Ameribank also advises OTS that it did not comply with the PCA
            requirement to raise capital levels to Adequately Capitalized by
            9/8/2008.

9/11/2008   In a Supervisory Memorandum, the OTS Northeast Regional
            Director recommends to Senior Deputy Director and Chief
            Operating Officer the appointment of FDIC as receiver.

9/12/2008   OTS receives notification that Standart Capital S.A., Inc., would
            place $17 million into escrow no later than 9/16/2008 as part of
            its plan to purchase Ameribank.

9/15/2008   OTS requests by 9/17/2008 specific details about Ameribank’s
            position that certain of its assets were not accounted for according
            to generally accepted accounting practices.

9/15/2008   OTS receives notification that Standart Capital will use Lion Capital
            Holdings, Inc., as the buyer.




            Material Loss Review of Ameribank, Inc.                         Page 48
            (OIG-09-036)
            Appendix 4
            Chronology of Significant Events




9/16/2008   OTS receives additional information from Standart Capital and Lion
            Capital Holdings and copies of the sale and purchase agreements
            that were drafted by Ameribank.

9/17/2008   Ameribank gives OTS a purchase and sale agreement executed by
            Lion Capital Holdings providing for purchase of the common stock
            of Ameribank's holding company for $1 million and the investment
            of an additional $15 million into Ameribank.

9/18/2008   OTS advises Ameribank that it needs to receive $3 million of
            additional capital and that the existence of the signed purchase
            and sale agreement would not affect the short-term outcome.
            Later, Ameribank’s owner informs OTS that no additional capital
            was received or available.

9/19/2008   OTS places Ameribank into receivership with FDIC. Two acquiring
            banks take over deposits, one in OH and the other in WV.




            Material Loss Review of Ameribank, Inc.                      Page 49
            (OIG-09-036)
                                Appendix 5
                                OTS Ameribank Examinations, Field Visits, and Enforcement Actions



                                                      Significant safety and soundness matters requiring
                                                      board attention, corrective actions, recommendations,           Formal
          Date             CAMELS       Assets        and other issues cited in reports of examination and            enforcement
          started          rating       (millions)    field visits13                                                  action
          7/22/2002        2/222211        $84        Matters requiring board attention                               None
                                                          None identified.


                                                      Corrective action
                                                          Update the Bank Secrecy Act policy to address
                                                           anti-money-laundering activities and current procedures
                                                           for exempting customers from filing Currency
                                                           Transaction Reports.


          11/12/2003          Field                   Purpose                                                         None
                             visit 14                 To analyze the operations of the Ameribank-Florida branch
                                                      under the revised business plan projections and to review the
                                                      commercial lending activities.


                                                      No recommendations were directed to Ameribank. The
                                                      examiners identified the following matters to be further
                                                      analyzed and developed during the 2004 full-scope
                                                      examination:
                                                        Reporting on loans to one borrower regulation on a
                                                           thriftwide system
                                                        Internal asset review process, for which no decision had
                                                           yet been made as to w hether to handle this
                                                           responsibility in-house or through outsourcing
                                                        Allowance for loan and lease losses (ALLL)
                                                           methodology, supporting analysis, appropriate
                                                           segmentation, and the overall ALLL level given the
                                                           planned increase in commercial product




13
  This table includes all OTS safety and soundness examinations that began during or after July 2002 and selected field visits.
For examinations, we list the following items contained in the report: matters requiring board attention, corrective actions, and
other matters. These three items are shown in decreasing order of significance, with matters requiring board attention being the
most serious.

14
     Field visits do not result in the assignment of CAMELS ratings.


                                Material Loss Review of Ameribank, Inc.                                                      Page 50
                                (OIG-09-036)
                               Appendix 5
                               OTS Ameribank Examinations, Field Visits, and Enforcement Actions




                                                    Significant safety and soundness matters requiring
                                                    board attention, corrective actions, recommendations,           Formal
         Date             CAMELS       Assets       and other issues cited in reports of examination and            enforcement
         started          rating       (millions)   field visits                                                    action
         4/12/2004        2/222311        $97       Matters requiring board attention                               None
                                                        None identified.


                                                    Corrective actions
                                                        Revise the methodology for the calculation of ALLL.
                                                        Address proper designation of loans to limited liability
                                                         companies and/or single asset companies, which were
                                                         being (incorrectly) categorized as consumer credits on
                                                         the thrift’s financial reports.
                                                        Continue efforts to improve earnings and reduce problem
                                                         assets.
                                                        Improve earnings performance.
                                                        Develop a revised budget and corresponding business
                                                         plan.
                                                        Ensure that reporting of the Consolidated Maturity Rate
                                                         Schedule is accurate.

                                                    Other matters
                                                        Regarding the specialty underwriting aspect associated
                                                         with new and used recreational vehicle lending,15 and in
                                                         light of the high committed amount as a percentage of
                                                         capital, continue close monitoring of these newly booked
                                                         assets and, going forward, apprise the board of the
                                                         extent of concentration in this lending on at least a
                                                         quarterly basis.




15
     Ameribank’s specialty lending also included yachts and luxury tour buses.


                               Material Loss Review of Ameribank, Inc.                                                     Page 51
                               (OIG-09-036)
                 Appendix 5
                 OTS Ameribank Examinations, Field Visits, and Enforcement Actions




                                        Significant safety and soundness matters requiring
                                        board attention, corrective actions, recommendations,             Formal
Date         CAMELS        Assets       and other issues cited in reports of examination and              enforcement
started      rating        (millions)   field visits                                                      action
10/25/2004   Field visit     $86        Purpose                                                           None
                                        To analyze the operations of the Ameribank-Florida branch
                                        under the revised business plan projections, which allowed for
                                        asset growth from $80.3 million in January 2003 to
                                        $146.5 million by December 2005; to review thrift asset
                                        quality and the loan quality of Ameribank-Florida’s higher-risk
                                        lending activity; and to review the proposed acquisition of
                                        Steel Valley Bank.


                                        Recommendations
                                            (directed to the board) Regularly review goals and
                                             strategies relating to the profitability and size of the
                                             specialty-lending portfolio as contained in Ameribank’s
                                             business plan.
                                            (directed to the board) Consider establishing an internal
                                             limit for recreational vehicle lending commensurate with
                                             the thrift’s capital level and/or asset size.
                                            (directed to management and the board) Stay on target
                                             with the strategies and projections outlined in the
                                             acquisition business plan. Discuss with the Office of
                                             Thrift Supervision (OTS) any significant adjustments or
                                             changes prior to implementation of the plan.


3/7/2005     Field visit     $91        Purpose                                                           None
                                        To assess the credit quality and growth of the Ameribank-
                                        Florida branch, analyze the operations of the thrift under the
                                        revised business plan projections, and review the thrift’s
                                        concentration in recreational vehicle lending.


                                        Note: The field visit identified an additional concentration in
                                        investor properties associ ated with LendingOne, which
                                        included a commercial line secured by investor property
                                        end loans, construction/rehabilitation of investor properties,
                                        and permanent mortgages on end loans.


                                        Recommendations
                                            (directed to the board) Discuss the overall tolerance for
                                             the inherent risks associated with the LendingOne
                                             program and consider in-house limitations (as a
                                             percentage of capital or assets) on the assets invested.




                 Material Loss Review of Ameribank, Inc.                                                         Page 52
                 (OIG-09-036)
                 Appendix 5
                 OTS Ameribank Examinations, Field Visits, and Enforcement Actions



                                      Significant safety and soundness matters requiring
                                      board attention, corrective actions, recommendations,            Formal
Date          CAMELS     Assets       and other issues cited in reports of examination and             enforcement
started       rating     (millions)   field visits                                                     action
3/7/2005                                 Provide OTS with the limits chosen for the specialty
(continued)                               lending portfolio and the LendingOne concentration. The
                                          limits should be tied to either the asset base or capital.


7/5/2005      2/221211     $136       Matters requiring board attention                                None
                                         None identified.


                                      Corrective actions
                                         Use the newly hired administrative employee to suppo rt
                                          and monitor the loan portfolio so that quality is
                                          maintained.


                                      Other matters
                                         The review of the various loan types revealed
                                          weaknesses and deficiencies in loan administration
                                          practices that would be rectified by the additional
                                          staffing that OTS had suggested in its prior two field
                                          visits was needed to support and monitor the commercial
                                          loan portfolio.
                                         Maintain a board-approved vessel appraiser list as part of
                                          the specialty lending policy.




                 Material Loss Review of Ameribank, Inc.                                                      Page 53
                 (OIG-09-036)
                 Appendix 5
                 OTS Ameribank Examinations, Field Visits, and Enforcement Actions




                                        Significant safety and soundness matters requiring
                                        board attention, corrective actions, recommendations,            Formal
Date         CAMELS        Assets       and other issues cited in reports of examination and             enforcement
started      rating        (millions)   field visits                                                     action
11/14/2005   Field visit     $135       Purpose                                                          None
                                        To follow up on the corrective actions identified by the
                                        7/5/2005 examination and to analyze the thrift’s earnings
                                        performance for its three operating divisions (West Virginia,
                                        Florida, and Ohio).


                                        OTS concluded that the thrift initiated timely and appropriate
                                        corrective actions, some of which were in process.
                                            The thrift was developing relationship summary sheets
                                             for each commercial borrower with outstanding credits
                                             exceeding $100,000.
                                            The thrift was updating its approved appraiser and
                                             engineer list.


11/15/2005   Field visit     $135       Purpose                                                          None
                                        To review negative amortization loan products offered by
                                        Ameribank and its operating subsidiary, Ameribank Mortgage
                                        Company, LLC, and ensure that the thrift’s risk management
                                        systems are in effect to deal with the potential added risks
                                        these loan products may contain.


                                        OTS requested that the thrift advise OTS if it plans to retain
                                        any of these loans.




                 Material Loss Review of Ameribank, Inc.                                                        Page 54
                 (OIG-09-036)
                Appendix 5
                OTS Ameribank Examinations, Field Visits, and Enforcement Actions




                                       Significant safety and soundness matters requiring
                                       board attention, corrective actions, recommendations,              Formal
Date        CAMELS        Assets       and other issues cited in reports of examination and               enforcement
started     rating        (millions)   field visits                                                       action
6/26/2006   Field visit     $152       Purpose                                                            None
                                       To review asset quality, given the significant and growing
                                       level of higher-risk loan portfolios, and to analyze earnings
                                       performance for core stabilization and adherence to approved
                                       business plan parameters, as well as the rationale for any
                                       major deviations or material changes from the plan. This field
                                       visit included all three Ameribank operating divisions and
                                       Ameribank Mortgage Company, Inc.


                                       Recommendations
                                          Apprise OTS if any issues of concern develop (such
                                           as signs of possible deterioration) regarding the
                                           $10.9 million in construction rehabilitation account loans
                                           secured by properties located in Louisiana.
                                          Ensure that third-party reviews are reported to the thrift’s
                                           compliance officer and the audit committee.


4/16/2007   4/344322        $161       Matters requiring board attention                                  Supervisory
                                          Ensure ongoing compliance with the Supervisory                 Directive
                                           Directive dated 5/25/2007.                                     5/25/2007
                                          Ensure that the thrift is led by competent senior officers
                                           with sufficient staff.                                         Cease and
                                          Take any and all actions necessary to reduce the thrift’s      Desist Order
                                           extreme concentration in assets related to LendingOne,         10/19/2007
                                           which created an unsafe and unsound situation.
                                          Recognize all asset classifications and special mention
                                           designations as determined by OTS and discussed at the
                                           lending meeting on 7/11/2007.
                                          Supplement the ALLL by at least the identified shortfall
                                           of $2.6 million and monitor the level of reserve to ensure
                                           proper protection against the inordinate level of problem
                                           assets.
                                          Address each of the corrective actions identified
                                           throughout the report of examination and as discussed at
                                           the examination exit meeting on 7/13/2007.
                                          Direct counsel to review a loans -to-one-borrower
                                           violation to determine whether a Suspicious Activity
                                           Report should be filed pursuant to 12 C.F.R. 563.180(d).




                Material Loss Review of Ameribank, Inc.                                                          Page 55
                (OIG-09-036)
                Appendix 5
                OTS Ameribank Examinations, Field Visits, and Enforcement Actions




                                    Significant safety and soundness matters requiring
                                    board attention, corrective actions, recommendations,             Formal
Date          CAMELS   Assets       and other issues cited in reports of examination and              enforcement
started       rating   (millions)   field visits                                                      action
4/16/2007                           Corrective actions
(continued)                            Beginning 9/30/2007, reflect on the thrift financial report
                                        a risk weight of 100 percent for the construction
                                        rehabilitation account and West Virginia construction
                                        loan portfolios to calculate risk-based capital.
                                       Immediately enhance the ALLL methodology as it
                                        pertains to the LendingOne relationship.
                                       Ensure compliance with accounting, monitoring
                                        procedures, and internal controls as required by Troubled
                                        Debt Restructuring guidelines set forth in section 240 of
                                        the OTS Examination Handbook.
                                       Restore earnings performance to levels necessary for
                                        capital accretion.
                                       By 9/30/2007, ensure that mortgage loans (including
                                        LendingOne products) included in the calculation for the
                                        Quarterly Collateral Certification Forms filed with the
                                        Federal Home Loan Bank meet the required terms for
                                        inclusion.
                                       Develop and manage an asset/liability and liquidity
                                        strategy conducive to the thrift’s current situation and
                                        problems. By 9/30/2007, the board and management
                                        should determine and review the actual and possible
                                        ramifications that pending changes in Ameribank’s
                                        relationship with LendingOne would have on liquidity
                                        planning and projections, inclusive of the Klear Title
                                        escrow deposits.
                                       By 9/30/2007, develop and institute new procedures
                                        designed to ensure that the Consolidated Maturity Rate
                                        Schedule is filed within the required deadline (45 days
                                        after the quarter end).
                                       By 9/30/2007, revise the current interest rate risk policy
                                        or incorporate additional guidance for it in the Funds
                                        Management Policy, adopting a single set of board-
                                        approved, prudent net portfolio value limits as required
                                        by Thrift Bulletin 13a.




                Material Loss Review of Ameribank, Inc.                                                   Page 56
                (OIG-09-036)
               Appendix 5
               OTS Ameribank Examinations, Field Visits, and Enforcement Actions




                                    Significant safety and soundness matters requiring
                                    board attention, corrective actions, recommendations,             Formal
Date        CAMELS     Assets       and other issues cited in reports of examination and              enforcement
started     rating     (millions)   field visits                                                      action
10/1/2007   5/554543     $115       Matters requiring board attention                                 Prompt
                                       Ensure that management complies with the 10/19/2007           Corrective
                                        cease and desist order.                                       Action
                                       Review all loans originated in the Florida market to          Directive
                                        ensure that the files are properly documented and risk-       8/25/2008
                                        rated.*
                                       Take any and all actions necessary to promptly reduce
                                        the thrift’s concentration in assets related to the
                                        LendingOne relationship.
                                       Keep OTS informed of the thrift’s recapitalization efforts.
                                       Maintain minimum Tier 1 and risk -based capital levels in
                                        compliance with section 10 of the cease and desist
                                        order, which set them at 8.5 percent and 11.5 percent,
                                        respectively.
                                       Review the internal loan review process to improve early
                                        identification of loans that should be criticized. *
                                       Strengthen internal controls for monitori ng outstanding
                                        credit facilities. *
                                       Revise the interest rate risk policy to include acceptable
                                        net portfolio value limits in each of the relevant interest
                                        rate scenarios.*
                                       Provide monthly monitoring reports to the board
                                        documenting that deposit terms remain within the pricing
                                        limits.


                                    Corrective actions
                                    Note: Four matters requiring board attention, identified with
                                    an asterisk (*) above, were also listed as corrective actions
                                    under the component CAMELS sections of the report. We do
                                    not repeat them in this section.


                                       (directed to both the board and management) Monitor the
                                        thrift’s new policies, procedures, and practices to ensure
                                        that they have their desired effect.




               Material Loss Review of Ameribank, Inc.                                                     Page 57
               (OIG-09-036)
                 Appendix 5
                 OTS Ameribank Examinations, Field Visits, and Enforcement Actions




                                      Significant safety and soundness matters requiring
                                      board attention, corrective actions, recommendations,          Formal
Date          CAMELS     Assets       and other issues cited in reports of examination and           enforcement
started       rating     (millions)   field visits                                                   action
10/1/2007                             Other matters
(continued)                              Representatives from the Federal Deposit Insurance Fund
                                          (FDIC) joined OTS and participated in the reappraisal
                                          review process.
                                         The 2006 and 2007 financial audits had not been
                                          completed. The thrift had not issued financial
                                          statements, in violation of OTS reporting requirements.
                                         Management had completed the sale of loans totaling
                                          $7.3 million to Enterprise National Bank. An agreement
                                          to sell the Ameribank-Florida branch to that institution
                                          was pending with its regulatory authorities.
                                         Ameribank demanded repayment of the $1.9 million
                                          LendingOne line of credit because it was classified
                                          doubtful. LendingOne indicated that it was in financial
                                          difficulty and might seek bankruptcy protection.


1/7/2008      4/454432     $144       Matters requiring board attention                              None
                                         None identified.


                                      Corrective actions
                                         None identified.


                                      Other matters
                                         The lack of adequate controls and oversight over
                                          Ameribank’s high-risk lending activities emanating from
                                          LendingOne culminated in a seriously distressed loan
                                          portfolio, warranting reappraisal of the value of more
                                          than 600 loans.
                                         Charge-offs related to the LendingOne loans exceeded
                                          $6.4 million as of year-end 2007, with additions to the
                                          ALLL related to those loans of nearly $6.6 million.
                                         The level of problem assets represented critically
                                          deficient asset quality, which presented an imminent
                                          threat to the institution’s viability.




                 Material Loss Review of Ameribank, Inc.                                                    Page 58
                 (OIG-09-036)
                     Appendix 5
                     OTS Ameribank Examinations, Field Visits, and Enforcement Actions




                                            Significant safety and soundness matters requiring
                                            board attention, corrective actions, recommendations,          Formal
Date             CAMELS        Assets       and other issues cited in reports of examination and           enforcement
started          rating        (millions)   field visits                                                   action
5/27/2008        Field visit     $104       Purpose                                                        None
                                            To review Ameribank’s compliance with the asset
                                            concentration reduction plan and reductions in the level of
                                            nonperforming assets.


                                            Other issues
                                               Asset write-downs/losses caused Ameribank to become
                                                a critically undercapitalized institution, requiring an
                                                immediate capital injection.
                                               Thrift management could not raise sufficient capital to
                                                improve the thrift’s “troubled” condition.
                                               FDIC was appointed as receiver on 9/19/2008.



Source: OTS reports of examination and field visits of Ameribank. When not included in these reports, the amount in the
assets column is as reported by Ameribank in the corresponding thrift financial report.




                     Material Loss Review of Ameribank, Inc.                                                      Page 59
                     (OIG-09-036)
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




We have completed two mandated material loss reviews of failed thrifts since the
current economic crisis began in 2007. This appendix provides our recommendations
to the Office of Thrift Supervision (OTS) resulting from these reviews. OTS
management concurred with the recommendations and has taken or planned corrective
actions that are responsive to the recommendations. In certain instances, the
recommendations address matters that require ongoing OTS management and
examiner attention.

 Report Title                                        Recommendations to OTS Director
 Safety and Soundness: Material Loss Review of       Ensure that the recommendations/lessons
 NetBank, FSB, OIG-08-032 (Apr. 23, 2008)            learned from OTS’s internal assessments of the
                                                     NetBank failure, as described on pages 21 and
 OTS closed NetBank and appointed the Federal        28 of that report, are implemented.
 Deposit Insurance Corporation (FDIC) as receiver
 on September 28, 2007. At that time, FDIC           Re-emphasize to examiners that for 3-rated
 estimated that NetBank’s failure would cost the     thrifts, formal enforcement action is presumed
 Deposit Insurance Fund $108 million.                warranted when certain circumstances identified
                                                     in the OTS Examination Handbook are met.
                                                     Examiners are also directed to document in the
                                                     examination files the reason for not taking
                                                     formal enforcement action in those
                                                     circumstances.

                                                     Establish in policy a process to assess the
                                                     causes of thrift failures and the supervision
                                                     exercised over the institution and to take
                                                     appropriate action to address any significant
                                                     supervisory weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of       Ensure that action is taken on the lessons
 IndyMac Bank, FSB, OIG-09-032 (Feb. 26,             learned and recommendations from the OTS
 2009)                                               internal review of the IndyMac failure.

 OTS closed IndyMac on July 11, 2008, and            Caution examiners that assigning composite
 named FDIC as conservator. As of                    CAMELS ratings of 1 or 2 to thrifts with high-
 December 31, 2008, FDIC estimated that              risk, aggressive growth business strategies need
 IndyMac’s failure would cost the Deposit            to be supported with compelling, verified
 Insurance Fund $10.7 billion.                       mitigating factors. Such mitigating factors
                                                     should consider things such as the institution’s
                                                     corporate governance, risk management
                                                     controls, allowance for loan and lease losses
                                                     methodologies, concentration limits, funding
                                                     sources, underwriting standards, and capital
                                                     levels and whether the mitigating factors are
                                                     likely to be sustainable in the long-term. Another
                                                     important factor that should be considered is the
                                                     extent the thrift offers nontraditional loan
                                                     products (regardless of whether loans are sold or

                     Material Loss Review of Ameribank, Inc.                                     Page 60
                     (OIG-09-036)
Appendix 6
Prior OIG Material Loss Review Recommendations


                                retained) that have not been stress tested in
                                difficult financial environments, and whether the
                                thrift can adequately manage the risks with such
                                products. OTS should re-examine and refine as
                                appropriate its guidance in this area.




Material Loss Review of Ameribank, Inc.                                     Page 61
(OIG-09-036)
Appendix 7
Management Response




Material Loss Review of Ameribank, Inc.   Page 62
(OIG-09-036)
Appendix 8
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Maria V. Carmona, Audit Manager
Myung G. Han, Analyst in Charge
Horace A. Bryan, Auditor
Gerald H. Kelly, Auditor
Regina A. Morrison, Auditor
Ronda R. Richardson, Auditor
A. Michelle Littlejohn, Program Analyst
Jaideep Mathai, Referencer
Catherine Yi, Referencer




Material Loss Review of Ameribank, Inc.               Page 63
(OIG-09-036)
Appendix 9
Report Distribution



   Department of the Treasury

       Office of Strategic Planning and Performance Management
       Office of Accounting and Internal Control

   Office of Thrift Supervision

       Liaison Officer

   Office of Management and Budget

       OIG Budget Examiner

   Federal Deposit Insurance Corporation

       Chairman

   United States Senate

       Chairman and Ranking Member
       Committee on Banking, Housing, and Urban Affairs

       Chairman and Ranking Member
       Committee on Finance

   U.S. House of Representatives

       Chairman and Ranking Member
       Committee on Financial Services

   U.S. Government Accountability Office

       Acting Comptroller General of the United States




   Material Loss Review of Ameribank, Inc.                   Page 64
   (OIG-09-036)
